No.

In the Supreme Court of the United States
DEPARTMENT OF HOMELAND SECURITY, ET AL.,
PETITIONERS

v.
VIJAYAKUMAR THURAISSIGIAM
ON PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

PETITION FOR A WRIT OF CERTIORARI

NOEL J. FRANCISCO
Solicitor General
Counsel of Record
JOSEPH H. HUNT
Assistant Attorney
General
EDWIN S. KNEEDLER
Deputy Solicitor General
ZACHARY D. TRIPP
Assistant to the Solicitor
General
EREZ REUVENI
JOSHUA S. PRESS
Attorneys
Department of Justice
Washington, D.C. 20530-0001
SupremeCtBriefs@usdoj.gov
(202) 514-2217

QUESTION PRESENTED

Respondent is an inadmissible alien who was apprehended almost immediately after illegally crossing the
U.S. border and was placed into expedited removal proceedings. See 8 U.S.C. 1225(b)(1). An asylum officer
conducted a credible-fear interview and found that respondent lacked a credible fear of persecution on a protected ground or a credible fear of torture. Upon de
novo review, an immigration judge reached the same
conclusions and respondent’s expedited-removal order
became final. Respondent then filed a petition for writ
of habeas corpus, which the district court dismissed for
lack of jurisdiction because it did not raise the kinds of
habeas challenges to expedited-removal orders that are
permitted under 8 U.S.C. 1252(e)(2). The court of appeals reversed, concluding that Section 1252(e)(2) violated the Suspension Clause, U.S. Const. Art. I, § 9,
Cl. 2, as applied to respondent.
The question presented is whether, as applied to respondent, Section 1252(e)(2) is unconstitutional under
the Suspension Clause.

(I)

PARTIES TO THE PROCEEDING

Petitioners were appellees in the court of appeals.
They are: Department of Homeland Security (DHS);
U.S. Customs and Border Protection (CBP); U.S. Citizenship and Immigration Services (USCIS); U.S. Immigration and Customs Enforcement (ICE); Kevin K.
McAleenan, Acting Secretary of DHS and Commissioner of CBP; William P. Barr, Attorney General of the
United States; Matthew Albence, Acting Director of
ICE; Kenneth T. Cuccinelli, Acting Director of USCIS;
Pete Flores, San Diego Field Operations Director,
CBP; Greg Archambeault, San Diego Field Office Director, ICE; and Robert Garcia, Acting Warden, Otay
Mesa Detention Center. *
Respondent was the appellant in the court of appeals. He is Vijayakumar Thuraissigiam.
RELATED PROCEEDINGS

United States District Court (S.D. Cal.):
Thuraissigiam v. United States Dep’t of Homeland
Sec., No. 18-cv-135 (Mar. 8, 2018)
United States Court of Appeals (9th Cir.):
Thuraissigiam v. United States Dep’t of Homeland
Sec., No. 18-55313 (Mar. 7, 2019)

Kevin K. McAleenan, Matthew Albence, Kenneth T. Cuccinelli,
and Robert Garcia are substituted for their predecessors Kirstjen
Nielsen, Thomas Homan, L. Francis Cissna, and Fred Figueroa.
See Sup. Ct. R. 35.3.
*

(II)

TABLE OF CONTENTS

Page
Opinions below .............................................................................. 1
Jurisdiction .................................................................................... 1
Statutory and constitutional provisions involved ...................... 2
Statement ...................................................................................... 3
Reasons for granting the petition ............................................. 15
A. The court of appeals erred in holding that
application of Section 1252(e)(2) to respondent
violates the Suspension Clause ...................................... 17
B. This case warrants the Court’s review.......................... 29
Conclusion ................................................................................... 32
Appendix A — Court of appeals opinion (Mar. 7, 2019) ....... 1a
Appendix B — District court order (Mar. 8, 2018) ............. 44a
Appendix C — Judgment in a civil case (Mar. 8, 2018) ...... 59a
Appendix D — Constitutional and statutory provisions .... 62a
TABLE OF AUTHORITIES

Cases:
American Immigration Lawyers Ass’n v. Reno,
18 F. Supp. 2d 38 (D.D.C. 1998), aff ’d,
199 F.3d 1352 (D.C. Cir. 2000) ........................................... 22
Boumediene v. Bush, 553 U.S. 723 (2008)............... 13, 14, 26
Castro v. U.S. Dep’t of Homeland Sec.:
163 F. Supp. 3d 157 (E.D. Pa.), aff ’d, 835 F.3d
422 (3d Cir. 2016), cert. denied, 137 S. Ct.
1581 (2017) ...................................................... 13, 23, 24
835 F.3d 422 (3d Cir. 2016), cert. denied,
137 S. Ct. 1581 (2017) .............................. 15, 16, 27, 28
Galvan v. Press, 347 U.S. 522 (1954) ................................... 17
Harisiades v. Shaughnessy, 342 U.S. 580 (1952) ............... 17
INS v. St. Cyr, 533 U.S. 289 (2001) ................................ 27, 28
Kleindienst v. Mandel, 408 U.S. 753 (1972) ....................... 17
Kwong Hai Chew v. Colding, 344 U.S. 590 (1953) ............. 19
(III)

IV
Cases—Continued:

Page

Landon v. Plasencia, 459 U.S. 21
(1982) ....................................................... 15, 16, 17, 19, 20, 27
Murray’s Lessee v. Hoboken Land & Improvement
Co., 59 U.S. (18 How.) 272 (1856) ...................................... 18
Nishimura Ekiu v. United States, 142 U.S. 651
(1892) .................................................................................... 18
Pena v. Lynch, 815 F.3d 452 (9th Cir. 2016) ....................... 22
Shaughnessy v. United States ex rel. Mezei,
345 U.S. 206 (1953).............................................................. 17
United States v. Verdugo-Urquidez, 494 U.S. 259
(1990) .................................................................................... 20
United States ex rel. Knauff v. Shaughnessy,
338 U.S. 537 (1950).............................................................. 17
Wong Yang Sung v. McGrath, 339 U.S. 33 (1950) ............. 19
Yamataya v. Fisher, 189 U.S. 86 (1903) ........................ 18, 19
Zakonaite v. Wolf, 226 U.S. 272 (1912) ............................... 23
Constitution, treaty, statutes, regulations, and rule:
U.S. Const.:
Art. I, § 9, Cl. 2 (Suspension Clause)............ passim, 62a
Amend. V (Due Process Clause) .................................... 18
Convention Against Torture and Other Cruel,
Inhuman or Degrading Treatment or Punishment,
adopted Dec. 10, 1984, S. Treaty Doc. No. 20,
100th Cong., 2d Sess. (1988), 1465 U.N.T.S. 85 ................. 7
Illegal Immigration Reform and Immigrant Responsibility Act of 1996, Pub. L. No. 104-208, Div. C,
110 Stat. 3009-546 ............................................................... 24
8 U.S.C. 1101(a)(42)(A) .................................................. 7, 62a
8 U.S.C. 1158(a) .............................................................. 7, 62a
8 U.S.C. 1158(b)(1)(A) .................................................. 20, 64a
8 U.S.C. 1182(a)(6)(A)(i) ........................................................ 20

V
Statutes, regulations, and rule—Continued:

Page

8 U.S.C. 1182(a)(6)(C) ............................................................. 4
8 U.S.C. 1182(a)(7) ............................................................... 4
8 U.S.C. 1182(a)(7)(A) ........................................................ 20
8 U.S.C. 1225(b)(1) .................................................... 3, 12, 76a
8 U.S.C. 1225(b)(1)(A)(i) .............................................. 4, 76a
8 U.S.C. 1225(b)(1)(A)(ii) ............................................... 6, 77a
8 U.S.C. 1225(b)(1)(A)(iii) ......................................... 4, 5, 77a
8 U.S.C. 1225(b)(1)(B) .................................................... 6, 78a
8 U.S.C. 1225(b)(1)(B)(ii) ............................................... 8, 78a
8 U.S.C. 1225(b)(1)(B)(iii) ............................................ 21, 78a
8 U.S.C. 1225(b)(1)(B)(iii)(I) .......................................... 8, 78a
8 U.S.C. 1225(b)(1)(B)(iii)(II) ........................................ 7, 78a
8 U.S.C. 1225(b)(1)(B)(iii)(III)....................................... 8, 79a
8 U.S.C. 1225(b)(1)(B)(v) ..................................... 7, 21, 30, 80a
8 U.S.C. 1225(b)(2)(C) .................................................. 22, 82a
8 U.S.C. 1228 .......................................................................... 25
8 U.S.C. 1229a .......................................................... 6, 8, 21, 22
8 U.S.C. 1229a(c)(5) ............................................................... 21
8 U.S.C. 1231(b)(3) ............................................................. 7, 25
8 U.S.C. 1231(b)(3)(A) ........................................................... 21
8 U.S.C. 1252 ................................................................... 8, 86a
8 U.S.C. 1252(a) ............................................................ 21, 86a
8 U.S.C. 1252(a)(2)(A)(i)-(iv) .......................................... 9, 86a
8 U.S.C. 1252(e) ............................................... 3, 9, 12, 13, 95a
8 U.S.C. 1252(e)(2) ................................................ passim, 96a
8 U.S.C. 1252(e)(2)(A)-(C) ............................................ 12, 96a
8 U.S.C. 1252(e)(3) ........................................................ 22, 96a
8 U.S.C. 1252(e)(3)(A) .............................................. 9, 22, 96a
8 U.S.C. 1252(e)(3)(B) .............................................. 9, 22, 97a
8 U.S.C. 1252(e)(3)(D) .................................................... 9, 97a

VI
Statutes, regulations, and rule—Continued:

Page

8 U.S.C. 1252(e)(4) ........................................................ 22, 98a
8 U.S.C. 1252(e)(5) ................................................ 2, 9, 22, 98a
8 C.F.R.:
Section 208.16(a) .............................................................. 21
Section 208.16(c)(2) ........................................................... 7
Section 208.17(a) .............................................................. 21
Section 208.30(d).................................................... 6, 12, 23
Section 208.30(e) ................................................................ 7
Section 208.30(e)(1) ........................................................... 7
Section 208.30(e)(2) ..................................................... 7, 23
Section 208.30(e)(3) ........................................................... 7
Section 208.30(e)(5) ........................................................... 8
Section 208.30(e)(7) ........................................................... 7
Section 208.30(f ) ................................................................ 8
Section 208.30(g)(1) ........................................................... 8
Section 208.31 .................................................................. 25
Section 235.3(b)(4) ............................................................. 6
Section 235.3(b)(4)(i)(C) .................................................... 8
Section 235.6(a) .................................................................. 8
Section 1003.42(c) .............................................................. 8
Section 1003.42(d) .............................................................. 8
Section 1208.16(c)(2) ......................................................... 7
Section 1208.30(g)(2)(iv)(A) ............................................ 24
Section 1208.30(g)(2)(iv)(B) .............................................. 8
Sup. Ct. R. 32.3 ...................................................................... 11
Miscellaneous:
Executive Office for Immigration Review, U.S. Dep’t
of Justice, Adjudication Statistics: Credible Fear
Review and Reasonable Fear Review Decisions
(July 24, 2019), https://www.justice.gov/eoir/page/
file/1104856/download......................................................... 25

VII
Miscellaneous—Continued:

Page

69 Fed. Reg. 48,877 (Aug. 11, 2004) ....................... 5, 6, 25, 31
84 Fed. Reg. 33,829 (July 16, 2019) ...................................... 25
84 Fed. Reg. 35,409 (July 23, 2019) ........................................ 5
H.R. Rep. No. 469, 104th Cong., 2d Sess. Pt. 1
(1996) ...................................................................... 4, 5, 24, 25
H.R. Rep. No. 828, 104th Cong., 2d Sess. (1996) .................. 9
Gerald L. Neuman, The Habeas Corpus Suspension
Clause After Boumediene v. Bush, 110 Colum. L.
Rev. 537 (2010) .................................................................... 28

In the Supreme Court of the United States
No.
DEPARTMENT OF HOMELAND SECURITY, ET AL.,
PETITIONERS

v.
VIJAYAKUMAR THURAISSIGIAM
ON PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

PETITION FOR A WRIT OF CERTIORARI

OPINIONS BELOW

The opinion of the court of appeals (App., infra, 1a43a) is reported at 917 F.3d 1097. The opinion of the
district court (App., infra, 44a-58a) is reported at 287
F. Supp. 3d 1077.
JURISDICTION

The judgment of the court of appeals was entered on
March 7, 2019. On May 24, 2019, Justice Kagan extended the time within which to file a petition for a writ
of certiorari to and including July 5, 2019. On June 26,
2019, Justice Kagan further extended the time to and
including August 4, 2019. The jurisdiction of this Court
is invoked under 28 U.S.C. 1254(1).

(1)

2
STATUTORY AND CONSTITUTIONAL
PROVISIONS INVOLVED

8 U.S.C. 1252(e)(2) and (5) provide:
(2) Habeas corpus proceedings
Judicial review of any determination made under
section 1225(b)(1) of this title is available in habeas
corpus proceedings, but shall be limited to determinations of—
(A) whether the petitioner is an alien,
(B) whether the petitioner was ordered removed under such section, and
(C) whether the petitioner can prove by a preponderance of the evidence that the petitioner is
an alien lawfully admitted for permanent residence, has been admitted as a refugee under section 1157 of this title, or has been granted asylum
under section 1158 of this title, such status not
having been terminated, and is entitled to such
further inquiry as prescribed by the Attorney
General pursuant to section 1225(b)(1)(C) of this
title.
* * * * *
(5) Scope of inquiry

In determining whether an alien has been ordered
removed under section 1225(b)(1) of this title, the
court’s inquiry shall be limited to whether such an
order in fact was issued and whether it relates to the
petitioner. There shall be no review of whether the
alien is actually inadmissible or entitled to any relief
from removal.

3
Other pertinent constitutional and statutory provisions
are reproduced in the appendix to this petition. App.,
infra, 62a-99a.
STATEMENT

Respondent is a native and citizen of Sri Lanka who
illegally entered the United States by crossing the U.S.
border with Mexico without inspection or admission by
an immigration officer and without a visa or other required documentation. C.A. S.E.R. (S.E.R.) 2-4. U.S.
Customs and Border Protection (CBP) agents encountered and apprehended him almost immediately after
he crossed, 25 yards north of the border. S.E.R. 3.
CBP determined that respondent was inadmissible
because of his lack of the required documents and
placed him in expedited removal (ER) under 8 U.S.C.
1225(b)(1). S.E.R. 2-4. He claimed a fear of returning
to Sri Lanka. S.E.R. 4. After a credible-fear screening
interview, an asylum officer determined that he lacked
a credible fear of persecution on a protected ground or
of torture. See S.E.R. 3-7, 12-16, 18-30. A supervisory
asylum officer reached the same conclusions. S.E.R. 16.
And on de novo review, an immigration judge (IJ) took
respondent’s testimony and again reached the same
conclusion, returning the case to U.S. Immigration and
Customs Enforcement (ICE) to remove respondent.
S.E.R. 44. Respondent thereafter filed a petition for a
writ of habeas corpus, which the district court dismissed
for lack of jurisdiction under 8 U.S.C. 1252(e). App., infra, 59a-60a. The court of appeals reversed and remanded, holding that the limitations on habeas corpus
review of an ER order in Section 1252(e) are unconstitutional under the Suspension Clause as applied to respondent. Id. at 1a-43a.

4
1. a. The statutory and regulatory provisions of the
ER regime are at the heart of this case. ER procedures
may be applied to an alien arriving at a port of entry
who is inadmissible because he lacks valid documentation or seeks to enter through fraud or willful misrepresentation of a material fact. 8 U.S.C. 1225(b)(1)(A)(i); see
8 U.S.C. 1182(a)(6)(C) and (7). The Secretary of Homeland Security also may designate for application of ER
procedures any or all aliens who are inadmissible on
those grounds, are unlawfully present inside the United
States without having been admitted or paroled, and
have been continuously physically present for less than
two years. 8 U.S.C. 1225(b)(1)(A)(iii). Under ER, inadmissible aliens are ordinarily ordered removed by an immigration officer, without further hearing or review.
8 U.S.C. 1225(b)(1)(A)(i). The ER system includes special procedures, however, for aliens who claim a fear of
return to their home countries or express an intent to
apply for asylum. See pp. 6-8, infra.
Congress established ER to “streamline[] rules and
procedures” for “deny[ing] admission to inadmissible
aliens,” while ensuring that there is “no danger that an
alien with a genuine asylum claim will be returned to
persecution.” H.R. Rep. No. 469, 104th Cong., 2d Sess.
Pt. 1, at 157-158 (1996) (House Report). Congress was
particularly concerned with abuse of the asylum system. Id. at 107. At the time, “[t]housands of smuggled
aliens arrive[d] in the United States each year with no
valid entry documents and declare[d] asylum.” Id. at
117. “Due to lack of detention space and overcrowded
immigration court dockets,” however, “many ha[d] been
released into the general population” and “a majority of
such aliens d[id] not return for their hearings.” Ibid.

5
Without ER, those aliens would be placed in full deportation proceedings before an IJ and “could reasonably
expect that the filing of an asylum application would allow them to remain indefinitely in the United States.”
Id. at 118.
b. In 2004, the Secretary invoked his authority under Section 1225(b)(1)(A)(iii) and designated for application of ER procedures aliens who are encountered
within 100 air miles of the U.S. border and within 14
days of having unlawfully entered the United States
without inspection or admission. 69 Fed. Reg. 48,877,
48,878-48,881 (Aug. 11, 2004). 1 The Secretary designated that category in response to an “urgent need” to
“improve the safety and security of the nation’s land
borders, as well as the need to deter foreign nationals
from undertaking dangerous border crossings, and
thereby prevent the needless deaths and crimes associated with human trafficking and alien smuggling operations.” Id. at 48,880.
At the time, “nearly 1 million aliens [were] apprehended each year in close proximity to the borders after
illegal entry.” 69 Fed. Reg. at 48,878. Application of
ER procedures to such aliens who are inadmissible on
the covered grounds was necessary, the Secretary explained, because “[i]t is not logistically possible” for the
Department of Homeland Security (DHS) to initiate full
The Acting Secretary of Homeland Security recently issued a
notice designating an additional ER category: Aliens who are inadmissible on the relevant grounds, are present without being admitted or paroled, have been continuously present for less than two
years, and are not covered by an existing designation, i.e., who fall
outside the 14-day/100-mile designation at issue here and other existing designations. 84 Fed. Reg. 35,409 (July 23, 2019).
1

6
IJ removal proceedings under 8 U.S.C. 1229a “against
all such aliens.” 69 Fed. Reg. at 48,878. DHS would
often allow Mexican nationals to return home “without
any formal removal order.” Ibid. But “many of those
who [we]re returned to Mexico s[ought] to reenter the
U.S. illegally, often within 24 hours of being voluntarily
returned.” Ibid. And DHS could not allow such voluntary returns at all to Central America or other noncontiguous countries. Without ER, DHS thus would put
those aliens into IJ removal proceedings under Section
1229a, but DHS “lack[ed] the resources to detain” all of
them in the interim. Ibid. As a result, “many of these
aliens [we]re released in the U.S. each year,” and many
“subsequently fail[ed] to appear for their removal proceedings, and then disappear[ed] in the U.S.” Ibid.
The Secretary anticipated that this designation
would be used for “those aliens who are apprehended
immediately proximate to the land border and have negligible ties or equities in the U.S.” 69 Fed. Reg. at
48,879. Noting that some designated aliens “may possess equities that weigh against the use of ” ER, the Secretary stated that officers have discretion to place a
designated alien into IJ removal proceedings under
Section 1229a. Ibid.
c. The ER system includes special procedures applicable to an alien who “indicates an intention to apply for
asylum, or expresses a fear of persecution or torture, or
a fear of return to his or her country.” 8 C.F.R.
235.3(b)(4); see 8 U.S.C. 1225(b)(1)(A)(ii) and (B). Such
an alien is referred for screening before an asylum officer, who interviews the alien, considers relevant facts,
and determines whether the alien has a credible fear.
8 U.S.C. 1225(b)(1)(A)(ii) and (B); see 8 C.F.R. 208.30(d)

7
and (e). A credible fear exists when there is a “significant possibility,” 8 U.S.C. 1225(b)(1)(B)(v), that the alien
could establish eligibility for asylum, withholding of removal, or protection under regulations implementing
the Convention Against Torture and Other Cruel, Inhuman or Degrading Treatment or Punishment (CAT),
adopted Dec. 10, 1984, S. Treaty Doc. No. 20, 100th Cong.,
2d Sess. 19 (1988), 1465 U.N.T.S. 85, 114. See 8 C.F.R.
208.30(e)(2) and (3). An alien in turn may be eligible for
asylum if he is unable or unwilling to return to the alien’s home country “because of persecution or a wellfounded fear of persecution on account of race, religion,
nationality, membership in a particular social group, or
political opinion.” 8 U.S.C. 1101(a)(42)(A); see 8 U.S.C.
1158(a). An alien may be entitled to withholding of removal if the Attorney General decides that his life or
freedom would be threatened on account of one of those
protected grounds in the country of removal. 8 U.S.C.
1231(b)(3). And an alien may be entitled to CAT protection if it is “more likely than not that he or she would be
tortured if removed to the proposed country of removal.” 8 C.F.R. 208.16(c)(2), 1208.16(c)(2).
The asylum officer must “create a written record of
his or her determination” regarding credible fear, including a “summary of the material facts as stated by
the applicant, any additional facts relied on by the officer, and the officer’s determination of whether, in light
of such facts, the alien has established a credible fear
of persecution or torture.” 8 C.F.R. 208.30(e)(1); see
8 U.S.C. 1225(b)(1)(B)(iii)(II). If the officer finds that the
individual lacks a credible fear, that finding “shall not become final until reviewed by a supervisory asylum officer.” 8 C.F.R. 208.30(e)(7). If the supervisory asylum

8
officer agrees that there is no credible fear, the asylum
officer “shall” provide the alien a “written notice of decision” that notifies the alien of the decision and the fact
that he can request IJ review. 8 C.F.R. 208.30(g)(1),
235.3(b)(4)(i)(C); see 8 U.S.C. 1225(b)(1)(B)(iii)(III).
If an alien requests IJ review, that review is de novo.
8 C.F.R. 1003.42(d). The IJ “may receive into evidence
any oral or written statement which is material and relevant to any issue in the review.” 8 C.F.R. 1003.42(c).
If the asylum officer (or IJ) finds that the alien has a
credible fear, the alien is referred for full IJ removal
proceedings under Section 1229a to consider whether to
grant asylum or withholding of removal. 8 C.F.R.
208.30(e)(5) and (f ), 235.6(a), 1208.30(g)(2)(iv)(B); see
8 U.S.C. 1225(b)(1)(B)(ii). If the asylum officer (along
with the supervisory asylum officer and, if review is
sought, the IJ) finds that the alien lacks a credible fear
of persecution on a protected ground or torture, the alien shall be removed without further hearing or review.
8 U.S.C. 1225(b)(1)(B)(iii)(I).
2. In 8 U.S.C. 1252, Congress sharply limited judicial review of final orders of removal issued under ER.
Subject to specified exceptions, Congress provided
that, “[n]otwithstanding any other provision of law
(statutory or nonstatutory), including section 2241 of title 28, or any other habeas corpus provision, and sections 1361 and 1651 of such title, no court shall have jurisdiction to review”: (1) any “cause or claim arising
from or relating to the implementation or operation of
an [ER] order of removal”; (2) the government’s decision to invoke ER; (3) “the application of [ER] to individual aliens, including the [credible fear] determina-

9
tion”; or (4) “procedures and policies adopted” to “implement the provisions of section 1225(b)(1).” 8 U.S.C.
1252(a)(2)(A)(i)-(iv).
Section 1252(e) sets forth the exceptions to the bar
on judicial review of ER orders. As relevant here, it
provides that judicial review of an ER order “is available in habeas corpus proceedings,” but “shall be limited” to three specific determinations.
8 U.S.C.
1252(e)(2). Those are whether the individual: (1) “is an
alien”; (2) “was ordered removed under” the ER statute; or (3) can prove that he or she was previously admitted to the United States as a lawful permanent resident, refugee, or asylee, and that such status has not
been terminated. Ibid. “In determining whether an alien has been ordered removed” under the ER statute,
Congress specified, “the court’s inquiry shall be limited
to whether such an order in fact was issued and whether
it relates to the petitioner. There shall be no review of
whether the alien is actually inadmissible or entitled to
any relief from removal.” 8 U.S.C. 1252(e)(5); see H.R.
Rep. No. 828, 104th Cong., 2d Sess. 220 (1996) (“[R]eview
does not extend to determinations of credible fear and
removability in the case of individual aliens.”). 2

Congress has also authorized judicial review of whether the ER
statute or any ER regulation “is constitutional,” and whether any
ER regulation, policy, guideline, or procedure is unlawful. 8 U.S.C.
1252(e)(3)(A). The United States District Court for the District of
Columbia has jurisdiction over such a challenge, so long as it is filed
within 60 days of the first implementation of the challenged practice.
8 U.S.C. 1252(e)(3)(B). Congress also provided for expedited treatment of such cases on appeal. 8 U.S.C. 1252(e)(3)(D).
2

10
3. As set forth above, see p. 3, supra, respondent
was apprehended 25 yards from the U.S.-Mexico border, shortly after illegally entering without inspection
or admission and without a valid entry document. He
was found inadmissible and processed for ER. Respondent asserted a fear of return to Sri Lanka, and an
asylum officer conducted a credible-fear interview.
Ibid. At the interview, respondent stated that he was a
farmer and that, while working one day, a group of men
approached and beat him, causing him to be hospitalized for 11 days. S.E.R. 23-25. The asylum officer’s records state that respondent told the asylum officer that
he did not know who the men were or why they had
beaten him, that they had not said anything to him and
never identified themselves, and that he had not reported the incident to police because they “w[ould] ask
who did it” and he “d[id] not know” so the police
“w[ould] not help [him].” S.E.R. 24-25. The asylum officer asked respondent whether he had ever been or was
“afraid of being harmed because of [his] political opinion,” and his answer was “No.” S.E.R. 25; see S.E.R. 6
(“Are you a member of any political party? No.”).
The asylum officer found that respondent testified
credibly, but found “No Nexus” to persecution on a protected ground. S.E.R. 15; see S.E.R. 29 (“The applicant
provided no testimony indicating that he was or will be
targeted because of race, religion, nationality, membership in a particular social group, or political opinion. It
is unknown who these individuals were or why they
wanted to harm the applicant.”). The asylum officer accordingly determined that no credible fear of persecution on a protected ground had been established, and

11
that there was “not a significant possibility that [respondent] could establish eligibility for withholding of
removal” or protection under the CAT. S.E.R. 15.
A supervisor reviewed those determinations and
agreed, signing the form. S.E.R. 16. Respondent was
provided a written record of the decision, including
Forms I-863 (DHS Notice of Referral to Immigration
Judge), I-869 (Record of Negative Credible Fear Finding and Request for Review by Immigration Judge),
and I-870 (Record of Determination/Credible Fear
Worksheet). S.E.R. 46-66; see S.E.R. 81.
Respondent requested and received de novo IJ review. The IJ’s order records that review occurred on
March 17, 2017, and that the IJ took testimony regarding respondent’s background and fear of returning to
his country of origin. S.E.R. 44. 3 The order states that
“[a]fter consideration of the evidence,” the IJ “f [ound]”
that respondent “has not established a significant possibility” that he would be persecuted “on the basis of
his/her race, religion, nationality, membership in a particular social group, or because of his/her political opinion.” Ibid. Handwritten notes indicate that the IJ also
found that respondent had not established a significant
possibility that he was eligible for protection under the
CAT. Ibid. The IJ accordingly affirmed the asylum officers’ decision, and returned the case to DHS “for removal of the alien.” Ibid.
4. Respondent thereafter filed a petition for a writ
of habeas corpus in the District Court for the Southern
A transcript of the IJ hearing is available but is not in the record.
The government offers to lodge the transcript if requested by the
Clerk. See Sup. Ct. R. 32.3.
3

12
District of California. D. Ct. Doc. 1 (Jan. 19, 2018). Respondent contended that his “expedited removal order
violated his statutory, regulatory and constitutional
rights,” sought vacatur of the order, and requested relief in the form of a “new, meaningful opportunity to apply for asylum and other relief from removal.” Id. at 1.
In particular, respondent alleged that the asylum officer failed to “elicit all relevant and useful information
bearing on whether the applicant has a credible fear of
persecution or torture” as provided for in 8 C.F.R.
208.30(d), and “failed to consider relevant country conditions evidence.” D. Ct. Doc. 1, at 11-12. Respondent
also alleged that the asylum officer and IJ deprived respondent “of a meaningful right to apply for asylum”
and other forms of relief under Section 1225(b)(1) “by
applying an incorrect legal standard” in making the
credible-fear determination, and failing to provide him
“with a meaningful opportunity to establish his claims,
failing to comply with the applicable statutory and regulatory requirements, and in not providing him with a
reasoned explanation for their decisions.” Id. at 14-15.
The district court dismissed the petition for lack of
jurisdiction under Section 1252(e)(2). App., infra, 59a60a; see id. at 44a-58a. The court determined that Section 1252(e)(2) unambiguously prohibited habeas review
of respondent’s claims because it limited review to
whether respondent (1) is an alien; (2) was “ordered removed under” Section 1225(b)(1); and (3) had not been
previously admitted as a lawful permanent resident,
refugee, or asylee. 8 U.S.C. 1252(e)(2)(A)-(C); App., infra, 49a-53a. The court then held that Section 1252(e)’s
restrictions on habeas corpus review are constitutional.
App., infra, 53a-57a. The court “d[id] not dispute that

13
the Suspension Clause applies” to respondent, but determined that Section 1252(e)’s restrictions on habeas
relief did not violate the Suspension Clause because respondent was subject to a final order of removal via ER
and Section 1252(e) “still ‘retains some avenues of judicial review, limited though they may be.’ ” Id. at 54a
(brackets and citation omitted). The court also found
Castro v. U.S. Dep’t of Homeland Sec., 163 F. Supp. 3d
157 (E.D. Pa.), aff ’d, 835 F.3d 422 (3d Cir. 2016), cert.
denied, 137 S. Ct. 1581 (2017), to be “incredibly persuasive” in rejecting a Suspension Clause challenge in the
“identical” factual and legal context. App., infra, 56a.
5. The court of appeals reversed and remanded.
App., infra, 1a-43a. First, the court agreed with the district court that Section 1252(e)(2) unambiguously
barred review of respondent’s challenge to his ER removal order. Id. at 9a-12a. Second, the court of appeals
held that Section 1252(e)(2) violated respondent’s rights
under the Suspension Clause. Id. at 12a-42a. Relying
on Boumediene v. Bush, 553 U.S. 723 (2008), the court
applied a two-step approach. App., infra, 28a; see id.
at 15a-20a. “[A]t step one,” the court “examine[d]
whether the Suspension Clause applies to the [habeas]
petitioner; and, if so, at step two,” the court “examine[d]
whether the substitute procedure provides review that
satisfies the Clause.” Id. at 18a-19a.
Applying that framework here, the court of appeals
first determined that aliens on U.S. soil, no matter their
mode of entry or how brief their presence, “may invoke
the Suspension Clause.” App., infra, 35a. At step two,
the court determined that “the Suspension Clause entitles the [habeas] petitioner to a meaningful opportunity

14
to demonstrate that he is being held pursuant to the erroneous application or interpretation of relevant law.”
Ibid. (quoting Boumediene, 553 U.S. at 779) (brackets
and internal quotation marks omitted). The court
stated that this included “claims for statutory as well as
constitutional error,” “claims that deportation hearings
were conducted unfairly,” claims regarding “the erroneous application or interpretation of statutes,” and
“mixed questions of fact and law—those involving an
application of law to undisputed fact.” Id. at 38a (citations omitted). The court noted that respondent had
claimed that “the government denied him a ‘fair procedure,’ ‘applied an incorrect legal standard’ to his credible fear contentions,” and “ ‘failed to comply with the applicable statutory and regulatory requirements.’ ” Id. at
37a (brackets omitted). The court concluded that the
Suspension Clause requires review of those claims in
this case. Ibid.
The court of appeals then held that the existing procedural mechanisms were inadequate to satisfy the Suspension Clause. The court first stated that the existing
administrative scheme lacked “rigorous adversarial
proceedings prior to a negative credible fear determination.” App., infra, 39a. The court then found that
feature “compounded by the fact that § 1252(e)(2) prevents” review of “whether DHS complied with the procedures in an individual case, or applied the correct legal standards.” Id. at 40a. The court determined that
respondent’s rights under the Suspension Clause “[were]
not satisfied by such a scheme.” Id. at 41a.
In reaching that result, the court of appeals distinguished this Court’s cases holding “that an alien seeking initial admission to the United States requests a

15
privilege and has no constitutional rights regarding his
application, for the power to admit or exclude aliens
is a sovereign prerogative.” Landon v. Plasencia,
459 U.S. 21, 32 (1982). The court of appeals understood
those cases to be limited to due process claims, and to
be “not relevant” to claims under the Suspension Clause.
App., infra, 28a; see id. at 24a-28a.
The court of appeals also recognized that it was creating a circuit conflict with Castro v. United States Department of Homeland Security, 835 F.3d 422 (3d Cir.
2016), cert. denied, 137 S. Ct. 1581 (2017). App., infra,
25a. The court stated that Castro decided “the precise
question” at issue here, holding that Section 1252(e)(2)
did not violate the Suspension Clause as applied to “ ‘recent surreptitious entrants’ ” who were ordered removed via ER after being found to lack a credible fear
of persecution. Id. at 13a, 24a (citation omitted). The
court “disagree[d] with Castro’s resolution” of the question, however, and in particular disagreed with the
Third Circuit’s reliance on Plasencia to hold that recent
surreptitious entrants could not invoke the Suspension
Clause to demand additional process beyond that which
Congress has provided. Id. at 25a.
REASONS FOR GRANTING THE PETITION

This Court should grant the petition for a writ of certiorari because the Ninth Circuit has held unconstitutional an important Act of Congress that has long governed judicial review of final orders of removal in expedited removal proceedings. That decision is wrong, creates a circuit conflict, and has significant practical importance.

16
The Ninth Circuit held that the Suspension Clause
provides respondent with a constitutional right to additional review of his application for admission, beyond
the review Congress has established. But this “Court
has long held that an alien seeking initial admission to
the United States” has “no constitutional rights regarding his application.” Landon v. Plasencia, 459 U.S. 21,
32 (1982). Moreover, even if the Suspension Clause
guaranteed some minimal constitutional baseline of review in this context, the existing framework for review
would more than suffice. Respondent was apprehended
shortly after illegally crossing the U.S. border, and he
did not and does not dispute that he is inadmissible. He
was provided a credible-fear screening interview by an
asylum officer, supervisory review of the asylum officer’s negative determination, and de novo IJ review;
and Congress has ensured that appropriately tailored
habeas corpus review of ER orders is available.
8 U.S.C. 1252(e)(2). Where such an alien merely seeks
to prevent his release to his home country by recasting
a due process challenge to his removal as a challenge to
an alleged suspension of the writ of habeas corpus, no
more is required.
As the Ninth Circuit recognized, its decision conflicts
with the Third Circuit’s decision in Castro v. United
States Department of Homeland Security, 835 F.3d 422
(2016), cert. denied, 137 S. Ct. 1581 (2017), which rejected
the same Suspension Clause challenge here. App., infra, 13a-14a; see id. at 25a. The question presented also
has significant practical importance. Thousands of aliens each year are ordered removed via ER after illegally entering, claiming a fear of persecution or torture,

17
but then being found after several layers of review (including de novo IJ review) to lack a credible fear of persecution on a protected ground or of torture. Under the
Ninth Circuit’s rule, virtually all of those aliens could
potentially seek largely unrestricted habeas review in a
district court, in direct contravention of Congress’s
clear judgment to narrowly limit such review. The effect is to invalidate Section 1252(e)(2) in its core applications and to significantly delay removal of aliens like
respondent, preventing expedited removal of such aliens from being expedited at all and undermining the
government’s ability to control the border. This Court
should grant certiorari and reverse.
A. The Court Of Appeals Erred In Holding That Application Of Section 1252(e)(2) To Respondent Violates The
Suspension Clause

1. Section 1252(e)(2) does not violate any rights of
respondent under the Suspension Clause.
a. “This Court has long held that an alien seeking
initial admission to the United States requests a privilege and has no constitutional rights regarding his application.” Plasencia, 459 U.S. at 32. “[T]he Court’s
general reaffirmations of this principle have been legion.” Kleindienst v. Mandel, 408 U.S. 753, 765-766
(1972); see id. at 767 (“[T]hat the formulation of these
policies is entrusted exclusively to Congress has become about as firmly embedded in the legislative and
judicial tissues of our body politic as any aspect of our
government.”) (quoting Galvan v. Press, 347 U.S. 522,
531 (1954)); Shaughnessy v. United States ex rel. Mezei,
345 U.S. 206, 212 (1953); Harisiades v. Shaughnessy,
342 U.S. 580, 591 (1952); United States ex rel. Knauff v.

18
Shaughnessy, 338 U.S. 537, 543 (1950); Nishimura
Ekiu v. United States, 142 U.S. 651, 659-660 (1892); cf.
Murray’s Lessee v. Hoboken Land & Improvement Co.,
59 U.S. (18 How.) 272, 284 (1856). The Constitution accordingly does not furnish to an alien seeking initial admission the right to demand additional procedures beyond those Congress provided.
Of particular relevance here, this Court’s decisions
strongly support the conclusion that, for constitutional
purposes, an alien apprehended soon after illegally
crossing the border is properly treated as an alien seeking initial admission. For example, in Yamataya v.
Fisher, 189 U.S. 86 (1903), the Court addressed a due
process challenge brought by an alien who had presented herself for inspection at a port of entry and been
allowed to enter, but who was placed into deportation
proceedings days later on the ground that she was likely
to become a public charge. Id. at 100-101; see id. at 87
(statement of the case) (noting that she entered July 11,
1901, and a warrant for her arrest was issued July 23,
1901). The Court concluded that she could invoke the
Due Process Clause—but expressly left “on one side the
question” whether an alien “who has entered the country clandestinely, and who has been here for too brief a
period to have become, in any real sense, a part of our
population,” can “rightfully invoke the due process
clause of the Constitution” before “his right to remain
is disputed.” Id. at 100 (emphasis added). That language indicates that an alien apprehended briefly after
crossing the U.S. border surreptitiously cannot lay the
same claim to constitutional protection in connection

19
with their admission as aliens who were lawfully admitted in the first place. Rather, such a clandestine entrant
may be treated as an applicant for initial admission.
This Court further held in Yamataya that—as applied to an alien who was lawfully admitted and thus
could claim due process protections—due process was
satisfied by summary administrative procedures consisting of an in-person interview by an immigration officer and the possibility of appeal to the Secretary of
Treasury, without any further review. See 189 U.S. at
102. Yamataya thus confirms that, even if the Constitution itself guaranteed some minimal protection for respondent in connection with seeking admission to the
United States, the existing framework would be sufficient. See pp. 20-24, infra.
The Court’s subsequent decisions reinforce these
points. The Court has described Yamataya as holding
that a “deportation statute must provide a hearing at
least for aliens who had not entered clandestinely and
who had been here some time even if illegally.” Wong
Yang Sung v. McGrath, 339 U.S. 33, 49-50 (1950) (emphasis added). And the Court has repeatedly indicated that
constitutional protections in connection with admission
are not conferred upon the alien’s illegal entry into the
country, but instead require residence for some period.
See Plasencia, 459 U.S. at 32 (“[O]nce an alien gains admission to our country and begins to develop the ties
that go with permanent residence, his constitutional
status changes accordingly.”) (emphasis added); Kwong
Hai Chew v. Colding, 344 U.S. 590, 596 n.5 (1953) (“[O]nce
an alien lawfully enters and resides in this country he
becomes invested with the rights guaranteed by the

20
Constitution to all people within our borders.”) (emphasis added; citation omitted); see also United States v.
Verdugo-Urquidez, 494 U.S. 259, 271 (1990) (“[A]liens
receive constitutional protections when they have come
within the territory of the United States and developed
substantial connections with this country.”).
b. The existing process of administrative and habeas
corpus review under ER is consistent with the Suspension Clause. In particular, a clandestine entrant like respondent is properly treated, for constitutional purposes, as an alien seeking initial admission and thus has
no underlying due process rights to vindicate in a habeas corpus challenge to an ER order. Such an alien
“has no constitutional rights regarding his application.”
Plasencia, 459 U.S. at 32. Accordingly, respondent cannot invoke the Suspension Clause to demand additional
process beyond the existing framework for obtaining
review of ER orders, including the appropriately tailored review in habeas corpus permitted under Section
1252(e)(2).
Moreover, to whatever extent the Suspension Clause
applies in this context and provides respondent some
limited constitutional rights in connection with his application for admission, the existing framework of administrative and habeas corpus review would be more
than sufficient. Respondent is an alien who was apprehended shortly after surreptitiously entering the
United States, without a valid entry document, and
he does not dispute that he is inadmissible and thus
lacks any right to enter or reside in the United States.
8 U.S.C. 1182(a)(6)(A)(i) and (7)(A). Asylum is a form
of discretionary relief, not a right. See 8 U.S.C.

21
1158(b)(1)(A). And withholding of removal and CAT relief, while mandatory when the criteria are satisfied,
only provide protection from removal to a particular
country, not a right to live in the United States. See
8 U.S.C. 1231(b)(3)(A); 8 C.F.R. 208.16(a), 208.17(a).
Moreover, the credible-fear screening process is just
that: A screening process for weeding out claims of asylum or withholding of removal that are least likely to
succeed on the merits, namely, when there is not even a
“significant possibility” of the alien establishing eligibility. 8 U.S.C. 1225(b)(1)(B)(v). If the alien passes that
screening and is found to have a credible fear, as often
occurs, the alien is placed in removal proceedings before
an IJ under Section 1229a to consider the asylum or
withholding claim, see 8 U.S.C. 1225(b)(1)(B)(iii); may
appeal to the Board of Immigration Appeals, 8 U.S.C.
1229a(c)(5); and from there may seek review in a court of
appeals, 8 U.S.C. 1252(a).
Respondent was afforded the procedures applicable
to a person who claims a fear, but he failed to satisfy
even the threshold screening standard: He was provided a credible-fear screening interview by an asylum
officer, with the opportunity to present evidence. That
officer found that respondent lacked a credible fear of
persecution on account of a protected ground (or a credible fear of torture) if removed to Sri Lanka. A supervisory officer agreed with that determination. Respondent then received de novo review by an IJ, who
again found, after taking respondent’s testimony and
asking him questions, that respondent lacked a credible
fear of persecution on a protected ground or of torture.
S.E.R. 18-30, 32-33, 44. Furthermore, habeas corpus is
available to challenge application of ER for purposes of

22
determining whether the individual is not an alien, is not
the person ordered removed, or was previously admitted as a lawful permanent resident, refugee, or asylee.
8 U.S.C. 1252(e)(2); see also 8 U.S.C. 1225(b)(2)(C),
1252(e)(4) (such aliens are entitled to IJ removal proceedings under Section 1229a). 4
Indeed, the sufficiency of the existing review framework is particularly clear under the circumstances of
this case. Respondent contends that the IJ deprived respondent “of a meaningful right to apply for asylum.”
D. Ct. Doc. 1, at 14. But respondent does not dispute
that he was, in fact, provided all the procedural steps in
the screening process described above, including de
novo IJ review: Respondent disagrees with the IJ’s
conclusion on the merits, asserting that he “should have
passed the credible fear stage.” Ibid. But Congress
provided that the IJ’s determination is final by expressly foreclosing further review. 8 U.S.C. 1252(e)(2)
and (5).

Congress has also provided a channel for courts to review challenges to the constitutionality and legality of the ER system if
brought within 60 days of the first implementation of the challenged
practice. 8 U.S.C. 1252(e)(3)(A) and (B). Although the 60-day time
limit prevents respondent from suing under Section 1252(e)(3), that
provision still enables the federal courts to review the most significant questions regarding the validity of the ER system. See Pena
v. Lynch, 815 F.3d 452, 456-457 (9th Cir. 2016) (“[T]he jurisdictionstripping provisions of the statute retain some avenues of judicial
review, limited though they may be.”); see also American Immigration Lawyers Ass’n v. Reno, 18 F. Supp. 2d 38, 54-56 (D.D.C. 1998)
(rejecting a challenge under Section 1252(e)(3)), aff ’d, 199 F.3d 1352
(D.C. Cir. 2000).
4

23
Respondent does not raise any constitutional challenge to the credible-fear screening framework. Instead, he disagrees with the merits of the asylum officer’s and IJ’s decisions in this particular case, which
were heavily factual and focused on the reasons why a
group of men attacked him in Sri Lanka. Historical
precedent “suggests strongly that the Suspension Clause
does not require judicial review of purely factual determinations or mixed fact and law determinations made in
the context of alien exclusion.” Castro v. U.S. Dep’t of
Homeland Sec., 163 F. Supp. 3d 157, 169 (E.D. Pa.),
aff ’d, 835 F.3d 422 (3d Cir. 2016), cert. denied, 137 S. Ct.
1581 (2017); see id. at 169-171 (collecting cases); e.g.,
Zakonaite v. Wolf, 226 U.S. 272, 275 (1912) (stating in
the deportation context that it was “entirely settled”
that the “inquiry may be properly devolved upon an executive department or subordinate officials thereof, and
that the findings of fact reached by such officials, after
a fair though summary hearing, may constitutionally be
made conclusive”).
Respondent also contends that the asylum officer
failed to “ ‘elicit all relevant and useful information’ ”
bearing on his claim, and “failed to consider relevant
country conditions evidence,” which he contends contravened federal regulations. D. Ct. Doc. 1, at 11-12 (quoting 8 C.F.R. 208.30(d) and citing 8 C.F.R. 208.30(e)(2)).
But even if respondent were correct, the administrative
process provided mechanisms for remedying such
claims of procedural error: The asylum officer’s determination was reviewed by a supervisory asylum officer,
and respondent had the further opportunity to present
evidence and information to the IJ, who took respond-

24
ent’s testimony and made a de novo credible-fear determination. The IJ’s determination, however, “is final and
may not be appealed.” 8 C.F.R. 1208.30(g)(2)(iv)(A).
c. There are also strong practical reasons for treating an inadmissible alien who surreptitiously crosses
the U.S. border the same way, for constitutional purposes, as an alien who arrives at a port of entry. If the
alien entering clandestinely were treated more favorably than an alien who arrives at a port of entry, that
would create a perverse incentive for aliens to cross the
border surreptitiously rather than presenting themselves for inspection. Indeed, one of Congress’s purposes in shifting from “entry” to “admission” in the Illegal Immigration Reform and Immigrant Responsibility Act of 1996, Pub. L. No. 104-208, Div. C, 110 Stat.
3009-546, was to eliminate the incentive that had previously existed, when a clandestine entrant would be
placed in full deportation proceedings (rather than summary exclusion proceedings) regardless of how quickly
or closely he was apprehended after his unlawful entry.
See House Report 225.
Furthermore, the judicial procedures respondent
demands—“necessitating pleadings, formal court proceedings, evidentiary review, and the like—would make
expedited removal of arriving aliens impossible.” Castro, 163 F. Supp. 3d at 174. “In FY 2013, for instance,
193,032 aliens were subject to expedited removal
(36,035 of whom expressed a fear of return to their native lands).” Ibid. The number of aliens who are found
to lack a credible fear after all three layers of administrative review is also considerable: According to published statistics from the Executive Office for Immigration Review (EOIR), from fiscal years 2014 through

25
2018, an average of more than 5000 aliens annually have
been found—after de novo review by an IJ, which itself
follows review by an asylum officer and a supervisory
asylum officer—to lack a credible fear. See EOIR, U.S.
Dep’t of Justice, Adjudication Statistics: Credible
Fear Review and Reasonable Fear Review Decisions 1
(July 24, 2019). 5 Permitting every such alien to seek judicial review and a stay of their removal pending such
review would impose a severe burden on the immigration system and threaten to defeat the purposes of the
ER system: to remove certain inadmissible aliens expeditiously and prevent abuse of the asylum system,
while ensuring full consideration of claims where the alien has been found to have a credible fear. See House
Report 116-118.
As the Secretary of Homeland Security explained
when promulgating the ER rule here in 2004, there is
an “urgent” need for expeditiously removing such aliens. 69 Fed. Reg. at 48,880. Moreover, there has been
a recent surge in apprehensions along the southwest
border and a “dramatic” increase in the proportion
of aliens subject to ER who are claiming a fear of return
and thus are placed into credible-fear screening
process. 84 Fed. Reg. 33,829, 33,830-33,831, 33,83833,840 (July 16, 2019). All of this has exacerbated the
current crisis at the southwest border. Ibid. Allowing
https://www.justice.gov/eoir/page/file/1104856/download. The
relevant figures here are for credible-fear determinations. Determinations of “reasonable fear” arise in different administrative processes for aliens convicted of an aggravated felony or aliens who illegally reenter the United States after being removed (or voluntarily departing under an order of removal) and whose prior removal
order is reinstated. See 8 U.S.C. 1228, 1231(b)(3); 8 C.F.R. 208.31.
5

26
for habeas corpus review could, therefore, cause the
very kinds of real-world problems that Congress designed the ER system to solve.
2. The court of appeals’ contrary reasoning lacks
merit.
First, contrary to the Ninth Circuit’s view, this
Court’s decision in Boumediene v. Bush, 553 U.S. 723
(2008), is fundamentally different. Among other things,
Boumediene involved a challenge to ongoing detention
for the duration of hostilities, pursuant to the law of
war. Id. at 732. The challengers sought to be released
from the government’s custody so they could return
home or to another country. See id. at 788 (discussing
“[t]he absence of a release remedy” under the relevant
statute).
By contrast, respondent does not challenge his detention as such. Indeed, unlike the petitioners in Boumediene, he is free to be returned to his home country: He
would be removed to and released in Sri Lanka forthwith absent his habeas petition here. Respondent instead effectively invoked habeas corpus as a vehicle to
prevent such release by seeking review of his ER order.
Respondent, moreover, concedes he is inadmissible under a statutory provision that properly triggered ER,
which fully justifies his exclusion and his detention to
effectuate that exclusion. And the only relief he seeks
is asylum (which is discretionary) or withholding of removal or protection under the CAT (which is mandatory
but merely bars removal to one specific country). Respondent thus seeks judicial review only to challenge
the government’s determination at the screening stage
that he failed to show even a significant likelihood he is
eligible for such relief. In short, unlike in Boumediene,

27
where the habeas petitioners sought to be released from
the government’s custody and returned home, here respondent is seeking to prevent the government from releasing him from custody by returning him to his home
country. That is starkly different from the law-of-war
detention question at issue in Boumediene. Cf. Castro,
835 F.3d at 450-451 (Hardiman, J., concurring dubitante).
The point is not that clandestine entrants like respondent can never invoke habeas corpus or the Suspension Clause at all: Section 1252(e)(2) preserves habeas to consider three specific issues concerning an ER
order, and it does not disturb the ability of such aliens
to raise constitutional challenges if they are prosecuted
criminally, for example, or arrested and held for reasons unrelated to their immigration status. Rather,
consistent with this Court’s precedents, such aliens may
not invoke the Constitution to demand procedural steps
or measures regarding their applications for admission beyond those provided by existing statutes and
regulations. Plasencia, 459 U.S. at 32. Respondent
cannot evade this Court’s longstanding precedents governing the exclusion and removal of aliens at the border
by recasting a due process challenge to existing administrative procedures as a challenge to an alleged suspension of the writ of habeas corpus.
Second, this Court’s decision in INS v. St. Cyr,
533 U.S. 289 (2001), and its finality-era cases also “are
not controlling here.” Castro, 835 F.3d at 447. 6 First,
The finality era refers to “an approximately sixty-year period”
from 1891 until 1952 during which Congress “rendered final (hence,
the ‘finality’ era) the Executive’s decisions to admit, exclude, or deport aliens,” but the Court permitted aliens to raise some challenges
6

28
unlike the “recent clandestine entrant[]” subject to ER
in Castro and this case, id. at 448, St. Cyr involved a
lawful permanent resident who had lived in the United
States for a decade and was subject to full deportation
proceedings, see 533 U.S. at 293. Second, unlike this
case, St. Cyr was a statutory case in which the Court
discussed (without deciding) what the Suspension
Clause “might possibly protect.” Castro, 835 F.3d at 446
(quoting Gerald L. Neuman, The Habeas Corpus Suspension Clause After Boumediene v. Bush, 110 Colum.
L. Rev. 537, 539 & n.8 (2010)). Indeed, the district court
in Castro found no finality-era case that “even mention[ed] the Suspension Clause,” and described the
Court in St. Cyr as “non-committal” when discussing
their significance to the Suspension Clause analysis.
Ibid. The Court in St. Cyr stated merely that “the ambiguities in the scope of the exercise of the writ at common law,” and “the suggestions in this Court’s prior decisions as to the extent to which habeas review could be
limited consistent with the Constitution,” supported application of the canon of constitutional avoidance in construing the statute at issue. 533 U.S. at 304 (emphases
added). Section 1252(e)(2) unambiguously bars habeas
review of the claims respondent raises here, however,
so that canon does not apply. See App., infra, 42a.
The habeas petition in St. Cyr also raised a “pure
question of law” and did not discuss whether or to what
extent an alien could obtain review even of a mixed
question of law and fact during the finality era. 533 U.S.

to their exclusion or deportation through habeas corpus during that
time. Castro, 835 F.3d at 436; see App., infra, 21a n.11.

29
at 298. By contrast, here, any review of the determination that respondent lacked a credible fear would be
highly fact-based, and any review of his assertions that
the asylum officer or IJ failed to follow procedures provided for by regulation in one or another respect would
require delving into the record-specific circumstances
of this particular case.
B. This Case Warrants The Court’s Review

In addition to being incorrect, the Ninth Circuit’s decision creates a circuit conflict. Indeed, the Ninth Circuit itself recognized that its decision created a conflict
with the Third Circuit’s decision in Castro: The Ninth
Circuit stated that Castro had decided “the precise
question” at issue here, holding that Section 1252(e)(2)
did not violate the Suspension Clause as applied to “ ‘recent surreptitious entrants’ ” who were ordered removed via ER after being found to lack a credible fear.
App., infra, 13a, 24a (citation omitted). But the Ninth
Circuit “disagree[d] with Castro’s resolution” of the
question, id. at 25a, and in particular disagreed with the
Third Circuit’s reliance on Plasencia to hold that aliens
like respondent could not invoke the Suspension Clause
to demand process beyond that which Congress has
provided, ibid.
The Ninth Circuit’s decision also warrants review
because it holds in broadly applicable terms that an Act
of Congress cannot constitutionally be applied to respondent, who was apprehended recently after surreptitiously entering the United States and then found, after several layers of administrative review, to lack a
credible fear. The court stated that the Suspension
Clause guarantees judicial review via habeas of “claims

30
for statutory as well as constitutional error,” “claims
that deportation hearings were conducted unfairly,”
claims regarding “the erroneous application or interpretation of statutes,” and “mixed questions of fact and
law—those involving an application of law to undisputed
fact.” App., infra, 38a (citations omitted). And the
court held that review was available for respondent’s
claims that “the government denied him a ‘fair procedure,’ ‘applied an incorrect legal standard’ to his credible fear contentions,” and “ ‘failed to comply with the applicable statutory and regulatory requirements.’ ” Id. at
37a (brackets omitted). Virtually any alien who enters
surreptitiously and is found to lack a credible fear after
exhausting administrative review could raise similar
claims. Accordingly, the court of appeals’ decision effectively guts Section 1252(e)(2), depriving it of operative force in its core applications.
As discussed above, see pp. 24-26, supra, the court of
appeals’ ruling has significant practical ramifications
and could recur with great frequency. The court’s ruling creates a pathway for thousands of inadmissible aliens annually who have failed after several opportunities even to show that there is a “significant possibility”
they are eligible for asylum or withholding, 8 U.S.C.
1225(b)(1)(B)(v), nonetheless to be able to delay their
removal for potentially extended periods by filing a petition for a writ of habeas corpus and contending that
the asylum officer or IJ made a procedural error or
made substantive errors in the application of law to fact.
Such review would further strain the government’s limited resources and prevent expedited removal from being expedited at all. Indeed, the whole point of estab-

31
lishing the ER system and applying it to aliens like respondent was that there was an “urgent need” for removal to be swift, and the enormous number of aliens
arriving at the border made it “not logistically possible”
to “initiate formal removal proceedings against all such
aliens” or to keep them in custody during that longer
period. 69 Fed. Reg. at 48,878.
The court of appeals’ ruling also creates a perverse
incentive for aliens to cross the border illegally rather
than present themselves at a port of entry, because the
ruling appears to apply only to aliens, like respondent,
who were apprehended after an illegal entry and placed
into ER. And because it is a constitutional ruling, it is
not clear that Congress could modify the ER system to
allow for prompt screening of asylum or withholding
claims and expeditious removal of those aliens whose
claims fail to pass the screening standard.
This case is an excellent vehicle for deciding the
question presented. The district court here relied on
Section 1252(e)(2) to dismiss respondent’s habeas petition, App., infra, 55a, and the only basis for the court of
appeals to reverse that determination was its holding
that Section 1252(e)(2) is unconstitutional under the
Suspension Clause. The question presented is accordingly outcome dispositive.

32
CONCLUSION

The petition for a writ of certiorari should be granted.
Respectfully submitted.
NOEL J. FRANCISCO
Solicitor General
JOSEPH H. HUNT
Assistant Attorney
General
EDWIN S. KNEEDLER
Deputy Solicitor General
ZACHARY D. TRIPP
Assistant to the Solicitor
General
EREZ REUVENI
JOSHUA S. PRESS
Attorneys

AUGUST 2019

APPENDIX A
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

No. 18-55313
D.C. No. CV 18-135 AJB
VIJAYAKUMAR THURAISSIGIAM,
PETITIONER -APPELLANT
v.
U.S. DEPARTMENT OF HOMELAND SECURITY;
U.S. CUSTOMS AND BORDER PROTECTION;
U.S. CITIZENSHIP AND IMMIGRATION SERVICES;
U.S. IMMIGRATION AND CUSTOMS ENFORCEMENT ;
KIRSTJEN NIELSEN, SECRETARY OF DHS; WILLIAM,
P. BARR, ATTORNEY GENERAL; KEVIN K.
MCALEENAN, ACTING COMMISSIONER OF CBP;
THOMAS HOMAN; L. FRANCIS CISSNA, DIRECTOR
OF USCIS; PETE FLORES, SAN DIEGO FIELD
DIRECTOR, CBP; GREGORY ARCHAMBEAULT,
SAN DIEGO FIELD OFFICE DIRECTOR, ICE;
FRED FIGUEROA, WARDEN, OTAY MESA
DETENTION CENTER, RESPONDENTS-APPELLEES
Argued and Submitted: May 17, 2018
Portland, Oregon
Filed: Mar. 7, 2019
Appeal from the United States District Court
for the Southern District of California
Anthony J. Battaglia, District Judge, Presiding

(1a)

2a

OPINION

Before:
A. WALLACE TASHIMA, M. MARGARET
MCKEOWN, and RICHARD A. PAEZ, Circuit Judges.
Opinion by Judge TASHIMA
TASHIMA, Circuit Judge:
Vijayakumar Thuraissigiam filed a habeas petition in
district court pursuant to 8 U.S.C. § 1252(e)(2) to challenge
the procedures leading to his expedited removal order.
The court dismissed the petition for lack of subject matter jurisdiction. We reverse. Although § 1252(e)(2)
does not authorize jurisdiction over the claims in Thuraissigiam’s petition, the Suspension Clause, U.S. Const.
art. I, § 9, cl. 2, requires that Thuraissigiam have a
“meaningful opportunity to demonstrate that he is being
held pursuant to ‘the erroneous application or interpretation’ of relevant law.” Boumediene v. Bush, 553 U.S.
723, 779 (2008) (quoting INS v. St. Cyr, 533 U.S. 289,
302 (2001)). Because § 1252(e)(2) does not provide that
meaningful opportunity, the provision violates the Suspension Clause as applied to Thuraissigiam.
BACKGROUND
I.

Statutory Background

When a U.S. Customs and Border Protection (“CBP”)
officer determines that a noncitizen arriving at a port of
entry is inadmissible for misrepresenting a material fact
or lacking necessary documentation, 1 the officer must
See 8 U.S.C. § 1182(a)(6)(C) (misrepresentation bar); id. § 1182(a)(7)
(documentation bar).
1

3a
place the noncitizen in so-called “expedited removal”
proceedings. 8 U.S.C. § 1225(b)(1)(A)(i). By regulation, the Department of Homeland Security (“DHS”), of
which CBP is a constituent agency, also applies expedited removal to inadmissible noncitizens arrested within
100 miles of the border and unable to prove that they
have been in the United States for more than the prior
two weeks. Designating Aliens for Expedited Removal,
69 Fed. Reg. 48877-01, 48879-80 (Aug. 11, 2004); 2 see
also 8 U.S.C. § 1225(b)(1)(A)(iii)(II).
DHS removes noncitizens eligible for expedited removal “without further hearing or review,” subject to
only one exception. 8 U.S.C. § 1225(b)(1)(A)(i). If, in
an interview with a CBP officer, the noncitizen indicates
an intent to apply for asylum or a fear of persecution,
DHS must refer the noncitizen for an interview with an
asylum officer. Id. § 1225(b)(1)(A)(ii); 8 C.F.R. § 208.30.
If that asylum officer determines that the noncitizen’s
fear of persecution is credible, the noncitizen is referred
to non-expedited removal proceedings, in which the noncitizen may apply for asylum or other forms of relief from
Congress gave the Attorney General the authority to extend expedited removal to some or all inadmissible noncitizens who cannot
prove that they have been in the United States for more than two
years prior; thus, the current regime does not represent the full
exercise of executive authority permitted by statute. 8 U.S.C.
§ 1225(b)(1)(A)(iii). DHS also applies expedited removal to noncitizens who entered the United States by sea and who have not been
in the United States for two years. See Notice Designating Aliens
Subject to Expedited Removal Under Section 235(b)(1)(A)(iii) of the
Immigration and Nationality Act, 67 Fed. Reg. 68,924, 68,924-25
(Nov. 13, 2002). The current regime may, however, expand; a January 2017 executive order instructs the Secretary of DHS to apply
expedited removal to the fullest extent of the law. See Exec. Order
No. 13,767, 82 Fed. Reg. 8793 (Jan. 25, 2017).
2

4a
removal. See 8 U.S.C. § 1225(b)(1)(B)(ii); 8 C.F.R.
§ 208.30(f ); 8 C.F.R. § 1003.42(f ). If the asylum officer
finds no credible fear of persecution, the noncitizen will
be removed. 8 U.S.C. § 1225(b)(1)(B)(iii). A supervisor
reviews the asylum officer’s credible fear determination,
8 C.F.R. §§ 208.30(e)(7), 235.3(b)(2), (b)(7), and a noncitizen may also request de novo review by an immigration
judge (“IJ”). 8 U.S.C. § 1225(b)(1)(B)(iii)(III); 8 C.F.R.
§ 1003.42. In 2016, DHS conducted over 141,000 expedited removals. See Refugee and Human Rights Amicus
Br. 10. All individuals placed in expedited removal proceedings are subject to mandatory detention pending a
final determination of credible fear of persecution or until they are removed. 8 U.S.C. § 1225(b)(1)(B)(iii)(IV).
Congress sharply circumscribed judicial review of the
expedited removal process. “[N]o court shall have jurisdiction to review . . . any individual determination
[or] . . . the application of [§ 1225(b)(1)] to individual aliens” outside of the review permitted by the habeas
review provision, § 1252(e). 8 U.S.C. § 1252(a)(2)(A)(iii).
Under § 1252(e)(2), a person in expedited removal proceedings may file a habeas petition in federal district
court to contest three DHS determinations: whether
the person is a noncitizen, whether he “was ordered removed” via expedited removal, and whether he is a lawful permanent resident or has another status exempting
him from expedited removal. Id. § 1252(e)(2)(A)-(C).
Review of whether a petitioner “was ordered removed”
is “limited to whether such an order in fact was issued
and whether it relates to the petitioner. Id. § 1252(e)(5).
“There shall be no review of whether the alien is actually
inadmissible or entitled to any relief from removal.”
Id.; see also 8 C.F.R. § 1003.42(f ) (“No appeal shall lie

5a
from a review of an adverse credible fear determination
made by an immigration judge.”).3
II.

Factual Background

Thuraissigiam is a native and citizen of Sri Lanka and
a Tamil, an ethnic minority group in Sri Lanka. See
Scholars of Sri Lankan Politics Amicus Br. 3. Thuraissigiam fled his home country in June 2016 and made his
way to Mexico. On February 17, 2017, Thuraissigiam
crossed the border into the United States. Late that
night, he was arrested by a CBP officer four miles west
of the San Ysidro, California, port of entry, 25 yards
north of the border.
DHS placed Thuraissigiam in expedited removal proceedings. Pursuant to 8 U.S.C. § 1225(b)(1)(A)(ii), CBP
referred Thuraissigiam for an interview with an asylum
officer after he indicated a fear of persecution in Sri
Lanka. On March 9, an asylum officer from the United
States Citizenship and Immigration Services (“USCIS”)
interviewed Thuraissigiam and determined that he had
not established a credible fear of persecution. A supervisor approved the decision. Thuraissigiam then requested review by an IJ, who affirmed the negative

Under 8 U.S.C. § 1252(e)(3), a person may challenge the constitutionality and legality of the expedited removal provisions, regulations implementing those provisions, or written policies to implement the provisions. Such challenges, however, must be brought
within 60 days after implementation and only in the District of Columbia. Id. § 1252(e)(3)(A)-(B). Various expedited removal provisions and implementing regulations survived a § 1252(e)(3) challenge
in American Immigration Lawyers Ass’n v. Reno, 18 F. Supp. 2d 38
(D.D.C. 1998), although the plaintiffs did not raise a Suspension
Clause argument about the extent of habeas review. See id. at 41.
3

6a
credible fear finding in a check-box decision and returned the case to DHS for Thuraissigiam’s removal.
III. District Court Proceedings

In January 2018, Thuraissigiam filed a habeas petition in federal district court, naming as respondents
DHS, several of its constituent agencies, and individual
agency officials. Thuraissigiam argued that his “expedited removal order violated his statutory, regulatory,
and constitutional rights,” sought to vacate the order,
and requested relief in the form of a “new, meaningful
opportunity to apply for asylum and other relief from
removal.” Thuraissigiam alleged that in Sri Lanka he
had been harassed for supporting a Tamil political candidate. In 2007, he was “detained and beaten” by Sri
Lankan army officers, and told not to support the candidate. In 2014, after Thuraissigiam continued to support the candidate, government intelligence officers kidnapped, bound, and beat him during an interrogation
about his political activities. Thuraissigiam alleged that
he “was lowered into a well, simulating drowning, threatened with death, and then suffocated, causing him to lose
consciousness.”
Thuraissigiam also made various factual allegations
about the expedited removal procedures to which he was
subject after being apprehended. For one, he alleged
that the asylum officer failed to “elicit all relevant and
useful information bearing on whether the applicant has
a credible fear of persecution or torture” in violation of
8 C.F.R. § 208.30(d) and “failed to consider relevant
country conditions evidence” in violation of 8 U.S.C.
§ 1225(b)(1)(B)(v) and 8 C.F.R. § 208.30(e)(2). Thuraissigiam also alleged that there were “communication problems” between the asylum officer, Thuraissigiam, and

7a
the translator, in violation of 8 C.F.R. § 208.30(d)(1)-(2).
Thuraissigiam alleged that the IJ hearing included the
same procedural and substantive flaws, and that at both
hearings, he was unaware whether “information he offered would be shared with the Sri Lankan government.” Thuraissigiam’s petition asserted two causes of
action:
First, DHS’ credible fear screening deprived Thuraissigiam “of a meaningful right to apply for asylum” and
other forms of relief, in violation of 8 U.S.C. § 1225(b)(1),
its implementing regulations, and the United States
Convention Against Torture, implemented in the Foreign Affairs Reform and Restructuring Act of 1998
(“FARRA”), Pub. L. No. 105-277, div. G., Title XXII,
§ 2242, 112 Stat. 2681 (1998). The asylum officer and IJ
also violated those statutes “by applying an incorrect legal standard” to Thuraissigiam’s credible fear application.
Second, the asylum officer and IJ violated Thuraissigiam’s rights under the Due Process Clause of the Fifth
Amendment by “not providing him with a meaningful
opportunity to establish his claims, failing to comply
with the applicable statutory and regulatory requirements, and in not providing him with a reasoned explanation for their decisions.”
The district court dismissed the habeas petition
for lack of subject matter jurisdiction. Thuraissigiam
v. U.S. Dep’t of Homeland Sec., 287 F. Supp. 3d 1077
(S.D. Cal. 2018). Relying on our precedents, the district court concluded that 8 U.S.C. § 1252(e) did not authorize jurisdiction over the claims in Thuraissigiam’s
petition. Id. at 1082. Next, the court rejected Thuraissigiam’s Suspension Clause arguments. Although
the court concluded that Thuraissigiam could invoke the

8a
Suspension Clause, it held that the statute’s “strict restraints” on habeas review of expedited removal orders
did not effectively suspend the writ of habeas corpus and
were therefore constitutionally sound. Id. at 1082-83.4
Thuraissigiam timely appealed the district court’s
dismissal and moved for a stay of removal pending appeal. A motions panel of our court initially denied
Thuraissigiam’s stay motion, but later vacated that order and stayed Thuraissigiam’s removal pending appeal.
STANDARD OF REVIEW
We have jurisdiction under 28 U.S.C. § 1291. We review de novo the district court’s dismissal of Thuraissigiam’s habeas petition for lack of subject matter jurisdiction. Bishop Paiute Tribe v. Inyo County, 863 F.3d
1144, 1151 (9th Cir. 2017); see also Garcia de Rincon v.
Dep’t of Homeland Sec., 539 F.3d 1133, 1136 (9th Cir.
2008).
DISCUSSION
We must decide whether a federal district court has
jurisdiction to review the claims in Thuraissigiam’s petition. We first inquire whether 8 U.S.C. § 1252(e)(2)
authorizes jurisdiction over Thuraissigiam’s petition.
Concluding that § 1252(e)(2) does not authorize jurisdiction, we then address whether the provision restricting
habeas review violates the Suspension Clause.

The district court also denied various stay motions that Thuraissigiam had filed, concluding that they were moot due to the petition’s
dismissal. 287 F. Supp. 3d at 1078.
4

9a
I.

Jurisdiction Under 8 U.S.C. § 1252(e)(2)

Thuraissigiam contends that 8 U.S.C. § 1252(e)(2)(B)
authorizes review of the statutory, regulatory, and constitutional claims raised in his habeas petition. We disagree. Section 1252(e)(2), including Subsection (B), limits a district court to reviewing three basic factual determinations related to an expedited removal order. Because Thuraissigiam’s petition does not challenge any of
those determinations, § 1252(e)(2) does not authorize jurisdiction over the petition.
A court applying habeas review under § 1252(e)(2) is
limited to determining:
(A)

whether the petitioner is an alien,

(B) whether the petitioner was ordered removed
under such section, and
(C) whether the petitioner can prove by a preponderance of the evidence that the petitioner is an alien
lawfully admitted for permanent residence, has been
admitted as a refugee under section 1157 of this title,
or has been granted asylum under section 1158 of this
title . . . .
Congress also provided express limitations on review
under Subsection (B):
In determining whether an alien has been ordered removed under section 1225(b)(1) of this title, the court’s
inquiry shall be limited to whether such an order in
fact was issued and whether it relates to the petitioner. There shall be no review of whether the alien is actually inadmissible or entitled to any relief
from removal.

10a
Id. § 1252(e)(5). Nonetheless, Thuraissigiam stakes his
claim on Subsection (B).
We considered and rejected a nearly identical argument in Garcia de Rincon. The petitioner in Garcia
de Rincon raised a due process challenge to an expedited removal order. 539 F.3d at 1136. Characterizing
§ 1252(e) as among the “most stringent” jurisdictionlimiting provisions in the immigration statutes, we held
that § 1252(e)(2) permits review only of “habeas petitions alleging that the petitioner is not an alien or was
never subject to an expedited removal order.” Id. at
1135, 1139. We therefore lacked jurisdiction because
the petitioner’s due process claims were not encompassed
by those enumerated grounds. Id. at 1139. Likewise,
Thuraissigiam’s claims of procedural violations are plainly
not claims about whether Thuraissigiam “was never subject to an expedited removal order.” 8 U.S.C. § 1252(e).
Thuraissigiam contends that such a reading of Subsection (B) renders superfluous the prohibition in § 1252(e)(5)
against “review of whether the alien is actually inadmissible or entitled to any relief from removal.” However,
§ 1252(e)(5) functions not to repeat § 1252(e)(2)(B), but to
explain it. Moreover, Thuraissigiam’s petition is barred
by the first sentence in § 1252(e)(5), not the second sentence. Because he asks the district court to review the
government’s procedures, those claims are beyond the
scope of “whether such an [expedited removal] order in
fact was issued and whether it relates to the petitioner.”5

Thuraissigiam also makes a structural argument, contending
that because Congress provided for some review of asylum claims
even in expedited removal cases, Congress must not have intended
to strip judicial review to “police the boundaries of those limits.”
5

11a
8 U.S.C. § 1252(e); see also United States v. BarajasAlvarado, 655 F.3d 1077, 1082 (9th Cir. 2011) (reaffirming that jurisdiction under § 1252(e)(2) “does not extend
to review of the claim that an alien was wrongfully deprived of the administrative review permitted under the
statute and applicable regulations”).
Thuraissigiam relies on Smith v. U.S. Customs &
Border Protection, 741 F.3d 1016 (9th Cir. 2014), to contend that we have adopted a more expansive view of
Subsection (B). Specifically, he contends that Smith
reviewed “whether the petitioner belonged in the expedited removal system,” and that a court may thus review
his petition. Smith, however, does not support Thuraissigiam’s argument. In Smith, CBP placed the petitioner, a Canadian citizen arriving at the border, in expedited removal proceedings for lacking certain documents. Id. at 1019. The petitioner alleged that CBP
exceeded its authority under the expedited removal statute because certain document requirements are waived
for Canadians, and argued that Subsection (B) authorized review. Id. at 1019, 1021. “Accepting [petitioner’s]
theory at face value,” we reviewed whether CBP in fact
classified him as an “intending immigrant.” Id. at
1021. Concluding that CBP had done so, we held that
§ 1252(e)(2) “permit[ted] us to go no further” and did not
discuss the merits of CBP’s classification. Id. at 1021-22
& n.4.6 Therefore, Smith reviewed only how CBP classified the petitioner, which is fairly encompassed by

This argument ignores the plain language of the statute, which evidences Congress’ intent to do just that.
6
The Smith petitioner also contended that § 1252(e)(2) violated
the Suspension Clause, but we did not reach the argument because

12a
whether “[the petitioner] was ordered removed” under
the expedited removal provision. Id. at 1022 (internal
quotation marks omitted). By contrast, Thuraissigiam
asks the district court to pass judgment on the procedures leading to his removal order. The limited review
provided under § 1252(e)(2) does not encompass such
claims.7
Therefore, in line with our precedents, we conclude
that § 1252(e) does not authorize habeas review of Thuraissigiam’s petition. We do not here address Thuraissigiam’s request that we apply the canon of constitutional avoidance to interpret § 1252(e) to provide jurisdiction over his legal claims. That canon only comes
into play if we conclude that § 1252(e) raises serious constitutional questions; thus, we first address Thuraissigiam’s Suspension Clause argument before contemplating the application of that canon. See St. Cyr, 533 U.S.
at 299-300, 314 (explaining constitutional avoidance canon
and applying it upon concluding that the statute in question raised serious constitutional questions).
II.

Suspension Clause

The Suspension Clause mandates, “The Privilege of
the Writ of Habeas Corpus shall not be suspended, unless
when in Cases of Rebellion or Invasion the public Safety

we held that the statute permitted limited review of his petition.
741 F.3d at 1022 n.6.
7
We have held that in appeals from convictions for criminal reentry, a defendant may collaterally attack a removal order that
forms the basis for his conviction. See United States v. OchoaOregel, 904 F.3d 682, 686 (9th Cir. 2018) (considering collateral attack on expedited removal order). But that rule does not apply to
this case.

13a
may require it.” U.S. Const. art. I, § 9, cl. 2. Our nation’s founders viewed the writ as a “vital instrument”
to secure individual liberty. Boumediene, 553 U.S. at
743. “The Clause protects the rights of the detained by
a means consistent with the essential design of the Constitution. It ensures that, except during periods of formal suspension, the Judiciary will have a time-tested device, the writ, to maintain the ‘delicate balance of governance’ that is itself the surest safeguard of liberty.”
Id. at 745 (citing Hamdi v. Rumsfeld, 542 U.S. 507, 536
(2004) (opinion of O’Connor, J.)). The Suspension Clause
prevents Congress from passing a statute that effectively
suspends the writ absent rebellion or invasion. See
Felker v. Turpin, 518 U.S. 651, 663-64 (1996). Thus,
the question in this case is whether 8 U.S.C. § 1252(e)(2)
effectively suspends the writ. Put another way, the
question is whether the habeas review available to
Thuraissigiam under § 1252(e)(2) satisfies the requirements of the Suspension Clause.
The Supreme Court has not yet answered that question. In fact, the Court has rarely addressed who may
invoke the Suspension Clause and the extent of review
the Clause requires. For example, only in Boumediene
has the Court concluded that a statute violated the Suspension Clause. Gerald L. Neuman, The Habeas Corpus
Suspension Clause After Boumediene v. Bush, 110 Colum.
L. Rev. 537, 538 (2010). In the Court’s other most recent Suspension Clause case, St. Cyr, the Court, after extensive analysis of the Suspension Clause issues at play,
interpreted the statute to avoid those issues. 533 U.S.
at 336-37. Of the federal courts of appeals, only the
Third Circuit has addressed the precise question before
us, whether § 1252(e)(2) as applied to noncitizen petitioners in expedited removal violates the Suspension Clause.

14a
See Castro v. U.S. Dep’t of Homeland Sec., 835 F.3d 422
(3d Cir. 2016) (concluding that, due to their status, such
petitioners could not invoke the Suspension Clause),
cert. denied, 137 S. Ct. 1581 (2017).
Boumediene traced the writ of habeas corpus to its
origins as a tool of the English crown, citing the detailed
historical account in Paul D. Halliday and G. Edward
White, The Suspension Clause: English Text, Imperial
Contexts, and American Implications, 94 Va. L. Rev.
575 (2008). 553 U.S. at 740. As Halliday and White
explain, the writ in England was the vehicle “to determine the rightness of constraints imposed on the bodies
of the king’s subjects of all kinds.” 94 Va. L. Rev. at
607. The writ was on occasion suspended in England.
Id. at 619; see Boumediene, 553 U.S. at 741. According
to Boumediene, that history “no doubt confirmed [the
Framers’] view that pendular swings to and away from
individual liberty were endemic to undivided, uncontrolled
power.” Id. at 742; see also Amanda L. Tyler, A “Second Magna Carta”: The English Habeas Corpus Act
and the Statutory Origins of the Habeas Privilege,
91 Notre Dame L. Rev. 1949, 1985-86 (2016) (describing
how suspensions of the writ in colonial America motivated the States’ desire to import similar habeas protections after gaining independence); Halliday & White,
94 Va. L. Rev. at 671 (highlighting the Framers’ desire to
restore “the traditional order of writs and suspensions”).
As Boumediene summed it up, the Suspension Clause
is rooted in the Framers’ first-hand experience “that the
common-law writ all too often had been insufficient to
guard against the abuse of monarchial power.” 553 U.S.
at 739-40. The Clause, therefore, is “not merely about
suspending the privilege of the writ of habeas corpus,

15a
but about the meaning of the ‘privilege of the writ’ itself.” Halliday & White, 94 Va. L. Rev. at 699. “Indeed, common law habeas corpus was, above all, an
adaptable remedy . . . [whose] precise application
and scope changed depending upon the circumstances.”
Boumediene, 553 U.S. at 779-80 (citing, inter alia, Richard H. Fallon, Jr. & Daniel J. Meltzer, Habeas Corpus
Jurisdiction, Substantive Rights, and the War on Terror, 120 Harv. L. Rev. 2029, 2102 (2007)).
In examining how the Supreme Court has defined the
Suspension Clause’s requirements, Boumediene is our
starting point, even if it does not provide a direct answer
to Thuraissigiam’s challenge. Boumediene and its predecessors, like St. Cyr, do provide an analytical blueprint. We therefore review those precedents before deciding how best to apply their principles to this appeal.
A.

Boumediene v. Bush

In Boumediene, the Supreme Court struck down a
War on Terror-era law after detainees at the Guantanamo
Bay prison in Cuba brought a Suspension Clause challenge. 553 U.S. at 732-33. In the wake of the September 11, 2001, attacks, the U.S. Department of Defense
created Combatant Status Review Tribunals (“CSRTs”)
to decide if detainees were “enemy combatants.” Id. at
733. The Boumediene petitioners, who had all appeared
before CSRTs and been deemed enemy combatants,
sought a writ of habeas corpus under the general habeas
statute, 28 U.S.C. § 2241. Id. at 734. After protracted
litigation, Congress passed the Detainee Treatment Act
of 2005 (“DTA”), which amended § 2241 to bar judicial
review of habeas petitions filed by Guantanamo detainees
and to vest review of CSRT decisions exclusively in the
D.C. Circuit. Id. at 735 (citing DTA § 1005(e), 119 Stat.

16a
2742). Section 7 of the Military Commissions Act of
2006 (“MCA”) made those provisions retroactive. Id.
at 736. See generally Hamad v. Gates, 732 F.3d 990,
996-99 (9th Cir. 2013) (describing Boumediene’s place in
the line of Guantanamo detainee cases). The Court
took a two-step approach to evaluating the detainees’
challenge to the MCA.
At step one, the Court evaluated whether the Guantanamo detainees—as enemy combatants detained on
foreign soil—could even invoke the Suspension Clause.
See Boumediene, 553 U.S. at 739. In so doing, the
Court affirmed that although the writ’s protections may
have expanded since the Constitution’s drafting, “at the
absolute minimum,” the Clause protects the writ as it
existed in 1789. Id. at 746 (citing St. Cyr, 533 U.S. at
301). The Court therefore examined historical authorities to determine the scope of the writ in 1789, and
whether it ran to “an enemy alien detained abroad.”
Id. at 752. Although noting that “at common law a petitioner’s status as an alien was not a categorical bar to
habeas corpus,” the Court concluded that the historical
record did not provide a definitive answer. Id. at 747,
752. Instead, the Court turned to its extraterritoriality precedents and from them concluded that “questions
of extraterritoriality turn on objective factors and practical concerns, not formalism.” Id. at 764. Boumediene
drew from Johnson v. Eisentrager, 339 U.S. 763 (1950),
another case about the extraterritorial application of the
Suspension Clause, three non-exclusive factors relevant
to the Clause’s extraterritorial scope:
(1) the citizenship and status of the detainee and the
adequacy of the process through which that status
determination was made; (2) the nature of the sites

17a
where apprehension and then detention took place;
and (3) the practical obstacles inherent in resolving
the prisoner’s entitlement to the writ.
553 U.S. at 766.8 Applying those factors, the Court concluded that the detainees could invoke the Suspension
Clause. Id. at 771.
At step two, the Court considered whether Congress
had suspended the writ without an adequate substitute.
The Court acknowledged that there are “few precedents
addressing what features an adequate substitute for habeas corpus must contain.” Id. at 772. For example,
the Court had previously upheld provisions of the Antiterrorism and Effective Death Penalty Act of 1996
(“AEDPA”) against a Suspension Clause challenge because the provisions “did not constitute a substantial departure from common-law habeas procedures.” Id. at
774 (citing Felker, 518 U.S. at 664); see also Neuman,
110 Colum. L. Rev. at 542 (stating that “what matters is
the substance, not the form, of the Great Writ,” and that
“Congress can rename or reconfigure the procedure by
which courts examine the lawfulness of detention,” as
long as the substitute is adequate).
In Boumediene, the Court gleaned from its precedents two “easily identified attributes of any constitutionally adequate habeas corpus proceeding.” 553 U.S.
at 779. First, the “privilege of habeas corpus entitles
In Rasul v. Bush, 542 U.S. 466 (2004), the Court had first discussed Eisentrager’s applicability to the question of who may invoke
the Suspension Clause. Id. at 487 (Kennedy, J., concurring) (“A
faithful application of Eisentrager, then, requires an initial inquiry
into the general circumstances of the detention to determine whether
the Court has the authority to entertain the petition and to grant
relief after considering all of the facts presented.”).
8

18a
the prisoner to a meaningful opportunity to demonstrate
that he is being held pursuant to ‘the erroneous application or interpretation’ of relevant law.” Id. (quoting St.
Cyr, 533 U.S. at 302). Second, “the habeas court must
have the power to order the conditional release of an individual unlawfully detained.” Id. Beyond those minimum requirements, “depending on the circumstances,
more may be required.” Id.
The Court further emphasized that “the necessary
scope of habeas review in part depends upon the rigor of
any earlier proceedings.” Id. at 781; see also id. at 786
(noting that “habeas corpus review may be more circumscribed if the underlying detention proceedings are
more thorough”). For that reason, courts sitting in habeas afford deference when reviewing another court’s
decision, but when a petitioner is “detained by executive
order . . . the need for collateral review is most
pressing.” Id. at 783. To be effective, the “habeas court
must have sufficient authority to conduct a meaningful
review of both the cause for detention and the Executive’s power to detain.” Id. Applying those principles
to the CSRTs and D.C. Circuit review, the Court concluded that the MCA did not provide an adequate substitute because the D.C. Circuit could not “consider
newly discovered evidence that could not have been
made part of the CSRT record.” Id. at 790. The Court
then concluded that it was not possible to read into the
statute provisions for the procedures necessary to satisfy the Suspension Clause, and therefore held it unconstitutional. Id. at 792.
Boumediene provides an analytical template for evaluating a Suspension Clause challenge: at step one, we
examine whether the Suspension Clause applies to the

19a
petitioner; and, if so, at step two, we examine whether
the substitute procedure provides review that satisfies
the Clause. How more specifically to apply that template is less clear, given that the Court generated its
three-factor test at step one in light of the extraterritoriality question in Boumediene. See id. at 764, 766.
Those factors, as both parties acknowledge, do not map
precisely onto this case because Thuraissigiam was apprehended and is detained on U.S. soil. 9 Yet, the manner in which the Court divined those factors informs our
approach here. Boumediene relied on Eisentrager and
related cases, but also looked to 1789-era application of
the writ to determine whether petitioners similarly situated to Guantanamo detainees had been able to invoke
the Clause. Although the Court emphasized that the
history was not dispositive, it made clear that “settled
precedents or legal commentaries in 1789 . . . can
be instructive.” Id. at 739.10

We too have applied the three Boumediene factors more readily
when asking whether a noncitizen outside the United States—again,
unlike Thuraissigiam—can claim the Constitution’s protections.
See Ibrahim v. Dep’t of Homeland Sec., 669 F.3d 983, 995 (9th Cir.
2012) (evaluating extraterritoriality in context of First and Fifth
Amendment claims).
10
Indeed, the Supreme Court’s proposition that the Suspension
Clause at least protects the writ as it existed in 1789 “necessarily
invites reference to history when interpreting and applying the Suspension Clause.” Amanda L. Tyler, Habeas Corpus in Wartime
9 (2017); see also Omar v. McHugh, 646 F.3d 13, 19 (D.C. Cir. 2011)
(Kavanaugh, J.) (“[H]istory matters: In habeas cases, we seek guidance from history ‘addressing the specific question before us.’ ”
(quoting Boumediene, 553 U.S. at 746)).
9

20a
At step two, Boumediene held that, at a minimum,
the Suspension Clause entitles a petitioner “to a meaningful opportunity to demonstrate he is being held to
‘the erroneous application or interpretation’ of relevant
law.” Id. at 779 (quoting St. Cyr, 533 U.S. at 302). In
considering whether the Clause required more in the
circumstances of Boumediene, the Court impliedly considered the rigor and character of the proceedings preceding habeas review. Also relevant to Thuraissigiam’s
case, the Court affirmed that the Suspension Clause protects “a right of first importance,” even in circumstances
—such as national security, in Boumediene—where the
executive’s power is at its zenith. Id. at 797-98.
B.

INS v. St. Cyr

St. Cyr, which predated Boumediene by several years,
sheds additional light on the Court’s approach to Suspension Clause questions. The petitioner, St. Cyr, was
a lawful permanent resident admitted to the United
States in 1986. 533 U.S. at 293. In 1996, St. Cyr
pleaded guilty to a criminal charge that made him removable, although under pre-AEDPA law (applicable at
the time of his conviction), he was eligible for a discretionary waiver from the Attorney General. Id. After
AEDPA was passed, the government began removal
proceedings, with the Attorney General interpreting
AEDPA to have removed his discretion to grant St. Cyr
a waiver. Id. St. Cyr filed a habeas petition alleging
that the Attorney General’s interpretation was erroneous because St. Cyr’s conviction predated AEDPA. Id.
After the district court and Second Circuit agreed with
St. Cyr, the government argued to the Supreme Court
that the courts lacked jurisdiction to review the Attorney General’s interpretation. Id. at 297-98.

21a
The Court stated that the government’s position had
to overcome several presumptions, chief among them
the “strong presumption in favor of judicial review of administrative action and the longstanding rule requiring
a clear statement of congressional intent to repeal habeas jurisdiction.” Id. at 298 (citing Ex parte Yerger,
75 U.S. (8 Wall.) 85, 102 (1869)). To address whether
the statute raised serious Suspension Clause questions,
the Court started from the principle that “[b]ecause of
[the] Clause, some ‘judicial intervention in deportation
cases’ is unquestionably ‘required by the Constitution.’ ”
Id. at 300 (citing Heikkila v. Barber, 345 U.S. 229, 235
(1953)). Because “at the absolute minimum, the Suspension Clause protects the writ ‘as it existed in 1789,’ ”
the Court looked at the writ’s application before and after the drafting of the Constitution. Id. at 301 (quoting
Felker, 518 U.S. at 663-64). Legal and historical authorities indicated that in both England and the United
States “the writ of habeas corpus has served as a means
of reviewing the legality of Executive detention, and it
is in that context that its protections have been strongest.” Id. Moreover, the writ was available both to
“nonenemy aliens as well as citizens” and “encompassed
detentions based on errors of law, including the erroneous application or interpretation of statutes.” Id. at
301-02.
St. Cyr also looked to the so-called “finality era,” 11
during which the statutory scheme precluded judicial in-

The “finality era” refers to “an approximately sixty-year period
when federal immigration law rendered final (hence, the ‘finality’
era) the Executive’s decisions to admit, exclude, or deport noncitizens. This period began with the passage of the Immigration Act
11

22a
tervention in immigration enforcement, except as required by the Constitution. Id. at 304-06. Despite
that statutory bar, the Court in the finality era “allow[ed] for review on habeas of questions of law.” Id.
at 304. Accordingly, the government’s reading of the
statute—to prohibit any judicial review of the Attorney
General’s interpretation—raised “Suspension Clause
questions that . . . are difficult and significant.”
Id. More directly, “to conclude that the writ is no
longer available in this context would represent a departure from historical practice in immigration law.” Id.
at 305. After canvassing that historical practice, and
noting that it was consistent with the writ’s “commonlaw antecedents,” the Court concluded that St. Cyr
could have brought his habeas claims under that regime.
Id. at 308. Thus, due to the serious constitutional questions raised, and because Congress had not provided a
“clear, unambiguous, and express” intent to preclude
habeas jurisdiction over questions of law, the Court concluded that the statutes at issue did not repeal habeas
jurisdiction. Id. at 314.
St. Cyr further illuminates how to approach both
Boumediene steps. Like Boumediene, St. Cyr looked
to the 1789-era historical application of the writ. St.
Cyr also looked to the finality era because it provides
evidence of what degree of habeas review is required under the Suspension Clause and to whom such review is
guaranteed in the immigration enforcement context.
of 1891, ch. 551, 26 Stat. 1084, and concluded when Congress enacted
the Immigration and Nationality Act of 1952, Pub. L. No. 82-414,
66 Stat. 163, which permitted judicial review of deportation orders
through declaratory judgment actions in federal district courts.”
Castro, 835 F.3d at 436.

23a
St. Cyr’s resort to prior habeas cases aligns with Boumediene’s similar reliance on Eisentrager to resolve ambiguities in the 1789-era application of the writ. That
St. Cyr ultimately avoided the Suspension Clause question does not diminish its wisdom or relevance as an example of the Court’s analytical approach to Suspension
Clause questions. Consistent with Boumediene and
St. Cyr, we conclude that both the common-law history
of the writ and the Court’s finality era cases are relevant
to what and whom the Suspension Clause protects. See
also Flores-Miramontes v. INS, 212 F.3d 1133, 1141-43
(9th Cir. 2000) (relying on common-law history and finality era cases in addressing Suspension Clause challenge); see also Trinidad y Garcia v. Thomas, 683 F.3d
952, 960 (9th Cir. 2012) (en banc) (Thomas, J., concurring) (discussing finality era cases as evidence of rights
protected by the Suspension Clause).
C.

The Third Circuit’s Decision in Castro

Before addressing Thuraissigiam’s Suspension Clause
challenge, we discuss the Third Circuit’s decision in Castro, which involved an analogous challenge to § 1252(e). 12
The Third Circuit concluded that § 1252(e) does not violate
the Suspension Clause as applied to 28 asylum-seeking
The government’s contention that the Second and Seventh Circuits have addressed the question before us is incorrect. Neither
case addresses the Suspension Clause. See Shunaula v. Holder,
732 F.3d 143, 147 (2d Cir. 2013) (addressing due process challenge
to § 1252(e)(2) and § 1252(a)(2)(A)); Khan v. Holder, 608 F.3d 325,
328 (7th Cir. 2010) (addressing § 1252(e)(2) in light of that circuit’s
“safety valve” doctrine for “judicial correction of bizarre miscarriages of justice”). Likewise, the case cited in the government’s
Rule 28( j) letter, Hamama v. Adducci, 912 F.3d 869 (6th Cir. 2018),
does not address the Suspension Clause in the context of the procedures leading up to an expedited removal order.
12

24a
families who, like Thuraissigiam, raised constitutional,
statutory, and regulatory claims relating to their negative credible fear determinations. 835 F.3d at 425, 428.
The families were all apprehended shortly after entering
the country, placed in expedited removal, and found not
to have credible fear. Id. at 427-28. As we do, the Third
Circuit rejected the argument that § 1252(e)(2) provides
jurisdiction over claims of legal error. Id. at 434.
Turning to the petitioners’ Suspension Clause challenge, the court opined that the Supreme Court’s habeas
cases are “perhaps even competing” with the plenary
power doctrine. Id. After reviewing Boumediene and
St. Cyr, Castro discussed the Court’s “commitment to
the full breadth of [that] doctrine, at least as to aliens at
the border seeking initial admission to the country.”
Id. at 443. Castro approached step one of Boumediene
by reference to the petitioners’ status in light of Landon
v. Plascencia, 459 U.S. 21 (1982), a case addressing due
process, not habeas, rights. Castro concluded that petitioners, as “recent surreptitious entrants,” should be
treated for constitutional purposes as “alien[s] seeking
initial admission to the United States.” 835 F.3d at 448.
In Landon, the Court stated that such a noncitizen “has
no constitutional rights regarding his application” for
entry into the country. 459 U.S. at 32. Accordingly, the
Third Circuit concluded that the petitioners’ challenge
failed at step one, and did not address whether § 1252(e)
was an adequate habeas substitute. 835 F.3d at 446.
The court acknowledged that its discussion of the petitioners’ status “appear[ed] to ignore” Supreme Court
precedent relating to the due process rights of noncitizens physically present in the country, but concluded

25a
that no case had clearly held that “arriving aliens” were
entitled to due process protections. Id. at 447-48.13
We disagree with Castro’s resolution of how Boumediene and St. Cyr require us to approach a Suspension Clause challenge. As explained at length above,
the Court’s mode of analysis in both of those cases addressed the scope of the Suspension Clause by reference
to the writ as it stood in 1789 and relevant habeas corpus
precedents. Castro explained that it did not rely on St.
Cyr’s description of the Court’s habeas approach in immigration cases in the finality era by emphasizing that,
unlike the Castro petitioners, St. Cyr was a lawful permanent resident, and that St. Cyr discussed only what
the Suspension Clause might protect. Id. at 446.
That St. Cyr did not affirmatively hold that the Suspension Clause was violated does not render its description of the finality era cases incorrect or its approach
irrelevant. Moreover, Castro’s decision to rely instead
on Landon is misplaced. Landon held that a permanent resident who traveled abroad and was detained
when attempting to reenter the United States should be
placed in exclusion proceedings rather than deportation.

After argument, the Third Circuit decided Osorio-Martinez v.
Attorney General, 893 F.3d 153 (3d Cir. 2018), involving four juvenile
petitioners from Castro. After their original habeas petitions were
dismissed, the juveniles had been granted Special Immigrant Juvenile (“SIJ”) status under 8 U.S.C. § 1108(a)(27)(J). Id. at 160. Applying Castro, the Third Circuit held that § 1252(e) was an unconstitutional suspension of the writ as applied to the petitioners, by virtue
of their “significant ties to this country” and the constitutional and
statutory rights flowing to SIJ designees under 8 U.S.C. § 1255(a) &
(h)(1). Id. at 167.
13

26a
459 U.S. at 22.14 Addressing the petitioner’s due process challenge to her exclusion proceedings, the Court
noted it had “long held that an alien seeking initial admission to the United States requests a privilege and
has no constitutional rights regarding his application.”
Id. As explained by Judge Hardiman, the Court in
Landon did not “purport to resolve a jurisdictional
question raising the possibility of an unconstitutional
suspension of the writ of habeas corpus”; rather it addressed only the due process rights of a permanent resident. Castro, 835 F.3d at 450 (Hardiman, J., concurring dubitante); see Landon, 459 U.S. at 32-35. Landon
could not and did not address the much different question of whether a petitioner like Thuraissigiam may invoke the Suspension Clause. 15
Although often conflated, the rights protected by the
Suspension Clause are not identical to those under the
Fifth Amendment’s guarantee of due process. See Lee
Kovarsky, Custodial and Collateral Process: A Response
At the time, Congress provided that removable noncitizens in the
United States were subject to deportation and those seeking initial
entry were subject to exclusion. Id. at 25. Now all noncitizens are
subject to removal, whether via 8 U.S.C. § 1225(b)(1) expedited removal or the removal procedures under 8 U.S.C. § 1229a.
15
Regardless, we disagree with the government’s contention and
Castro’s conclusion that a person like Thuraissigiam lacks all procedural due process rights. See 835 F.3d at 447-48. The Supreme
Court has been clear that presence matters to due process. See,
e.g., Mathews v. Diaz, 426 U.S. 67, 77 (1976); Zadvydas v. Davis,
533 U.S. 678, 693 (2001). And we have held that a noncitizen situated almost exactly like Thuraissigiam had a constitutional right “to
expedited removal proceedings that conformed to the dictates of
due process.” United States v. Raya-Vaca, 771 F.3d 1195, 1203
(9th Cir. 2014); see also Immigration Scholars Amicus Br. (explaining why Thuraissigiam has procedural due process rights).
14

27a
to Professor Garrett, 98 Cornell L. Rev. Online 1, 1 (2013)
(“Due process and the habeas privilege are distinct constitutional phenomena, [but] federal courts almost pathologically confuse them.”). It is true that, historically,
the Fifth Amendment’s due process guarantee and the
Suspension Clause have been applied in tandem, as their
applicability was rarely disputed. See Mary Van Houten,
The Post-Boumediene Paradox: Habeas Corpus or Due
Process?, 67 Stan. L. Rev. Online 9, 10 (2014) (observing
that these provisions “were almost always jointly applied before Boumediene”). But this fact does not mean
these rights should be elided, as made clear by the fact
that the Constitution, ratified two-and-a-half years before the Fifth Amendment, see Bute v. People of State of
Ill., 333 U.S. 640, 650 (1948), presupposed the existence
of the writ of habeas corpus, see Boumediene, 553 U.S.
at 739 (“Protection for the privilege of habeas corpus
was one of the few safeguards of liberty specified in a
Constitution that, at the outset, had no Bill of Rights.”).
Indeed, the writ “is almost the only remedy mentioned
in the Constitution” as originally ratified. Fallon & Meltzer, 120 Harv. L. Rev. at 2037.
Boumediene itself clearly recognized the distinction
between the Fifth Amendment’s due process rights and
the Suspension Clause—providing further reason not to
treat Landon’s discussion of due process rights as having any bearing on the application of the Suspension
Clause. In Boumediene, the Court decided that the
Guantanamo detainees could invoke the Suspension
Clause without addressing whether they had due process rights or whether the CSRTs satisfied due process.
553 U.S. at 785; see also id. at 739 (starting from the
proposition that “protection for the privilege of habeas
corpus was one of the few safeguards of liberty specified

28a
in a Constitution that, at the outset, had no Bill of
Rights[]”); Flores-Miramontes, 212 F.3d at 1142 (noting
that habeas was available at common law prior to the
drafting of the Constitution). The Court in Boumediene
therefore explicitly declined to link due process rights
and Suspension Clause rights. See Hamad, 732 F.3d
at 999 (noting that Boumediene did not address whether
the due process clause applied to the Guantanamo detainees); see also Kiyemba v. Obama, 555 F.3d 1022,
1027 (D.C. Cir. 2009) (concluding on habeas review that
Guantanamo detainees lacked due process rights), vacated by 559 U.S. 131 (2010), reinstated by 605 F.3d 1046,
1047 (D.C. Cir. 2010). Landon, a due process case, is
not relevant to whether Thuraissigiam can invoke the
Suspension Clause. For that reason, we decline to follow Castro’s approach and reject the government’s argument that Thuraissigiam’s purported lack of due process rights is determinative of whether he can invoke the
Suspension Clause.
Instead, in accordance with Boumediene, we evaluate Thuraissigiam’s Suspension Clause challenge in two
steps: First, to determine whether Thuraissigiam may
invoke the Suspension Clause, we examine 1789-era
practice, the finality era cases, and other relevant precedents. Second, we ask whether § 1252(e)(2) provides
Thuraissigiam a “meaningful opportunity to demonstrate that he is being held pursuant to ‘the erroneous
application or interpretation’ of relevant law.” Boumediene, 553 U.S. at 779. At step two, we keep in mind
that the character of the earlier proceedings bears on
the level of habeas review required. Id. at 781.

29a
III. Application
A.

Garcia de Rincon and Pena

At the outset, the government contends that our decisions in Garcia de Rincon, 539 F.3d 1133, and Pena v.
Lynch, 815 F.3d 452 (9th Cir. 2016), require us to affirm.
Although in both cases we rejected arguments that
§ 1252(e)(2) authorized jurisdiction, neither case answered the constitutional question before us today.
In Garcia de Rincon, the petitioner was a noncitizen
living in the United States who was stopped at the border attempting to reenter after a visit to Mexico, and
placed in expedited removal. 539 F.3d at 1135. After
rejecting the petitioner’s statutory challenge, we dismissed her argument—“although . . . not articulated”
as such—that the Suspension Clause required review of
her petition. Id. at 1141. The precise question considered was whether “the INA provides no adequate
substitute for habeas review and therefore suspends the
writ”—a Boumediene step two question, although Garcia de Rincon never addressed Boumediene, which had
been decided months earlier. Id. We concluded that
Li v. Eddy, 259 F.3d 1132 (9th Cir. 2001), vacated on
reh’g as moot, 324 F.3d 1109 (9th Cir. 2003), discredited
the petitioner’s “generalized due process argument,”
the only right she sought to vindicate via her petition.
Id. Garcia de Rincon says nothing about whether Thuraissigiam can invoke the Suspension Clause, whether the
Clause requires habeas review of statutory or legal
claims, or what the Clause requires for a petitioner like
Thuraissigiam who is within the United States. Instead, the case addressed only whether § 1252(e)(2) suspends the writ when a petitioner lacks due process

30a
rights. Put in Boumediene step-two terms, the due process clause was not “relevant law” for the Garcia de
Rincon petitioner.16
Pena also did not settle the question before us. In
Pena, a noncitizen placed in expedited removal filed a
petition for review of the Board of Immigration Appeals’
dismissal of his appeal from an IJ’s decision affirming a
negative credible fear determination. 815 F.3d at 454.
Because the petition was not brought under § 1252(e)(2),
we concluded that we lacked jurisdiction. Id. at 457.
We went on to note that in Webster v. Doe, 486 U.S. 592,
603 (1988), the Court had “suggested that a litigant may
be unconstitutionally denied a forum when there is absolutely no avenue for judicial review of a colorable
claim of constitutional deprivation.” 815 F.3d at 456
(emphasis in original). We concluded that Pena’s petition did not raise Webster concerns because he lacked a
colorable constitutional claim, 17 and further noted that
§ 1252(e)(2) provides “some avenues of judicial review.”
Id. at 456-57. All that Pena says, therefore, is that
§ 1252(e) does not implicate the Webster doctrine when
a petitioner fails to raise colorable constitutional claims.
Pena never addressed the Suspension Clause.
Because neither Garcia de Rincon nor Pena addressed whether § 1252(e)(2) unlawfully suspends the
In case there were any doubt, Smith subsequently reserved the
question of whether, as applied to a noncitizen in expedited removal,
the Suspension Clause requires review beyond that provided for in
§ 1252(e)(2). See 741 F.3d at 1022 n.6. That reservation necessarily
determined that Garcia de Rincon had not settled the question.
17
Pena claimed that the IJ violated due process by failing to elicit
a voluntary waiver of his right to counsel, but we noted that that
claim was contradicted by the record. Id. at 455-56.
16

31a
writ as applied to a petitioner like Thuraissigiam, we reject the government’s argument that those cases alone
require us to affirm.
B.

Reach of the Suspension Clause

At Boumediene step one, we must consider the reach
of the Suspension Clause, or, in other words, whether
Thuraissigiam is “barred from seeking the writ or invoking the protections of the Suspension Clause . . . because of [his] status. . . . ” Boumediene, 553 U.S. at
739. In Boumediene, the Court answered this question
by reference to its precedents and the common law history of the writ. We therefore do the same. 18
As described above, the Court in Boumediene generated a threefactor test at step one in light of the extraterritoriality question presented. This test does not clearly fit in the present case, given that
Thuraissigiam was apprehended and detained in the United States.
See 553 U.S. at 764, 766.
However, even were we to apply
Boumediene’s three-factor test here, it would, as in Boumediene,
support application of the Suspension Clause.
The first factor, Thuraissigiam’s “citizenship and status” and
“the adequacy of the process through which that status determination was made,” Id. at 766, weighs in favor of applying the Suspension Clause. Thuraissigiam is a foreign national who contests his
status—he contends that he has a credible fear of persecution and
therefore qualifies as a refugee entitled to asylum. Like the CRST
process at issue in Boumediene, the determination as to whether a
noncitizen has a credible fear is not made via a “rigorous adversarial
process to test the legality of [his] detention.” Id. at 767. The determination is made by an asylum officer, 8 C.F.R. § 208.30(d), and
although the noncitizen may consult others and even have them present a statement at the end of the interview, 8 C.F.R. § 208.30(d)(4),
other hallmarks of the adversarial process are lacking. If the noncitizen then chooses to contest an asylum officer’s negative credible
fear determination, the noncitizen is entitled only to cursory review
by an IJ. 8 C.F.R. § 208.30(g); 8 C.F.R. § 1208.39(g)(2). Critically,
18

32a
As explained, in St. Cyr, the Court canvassed cases
from England and historical accounts to conclude that
the writ was available before 1789 to “nonenemy aliens
as well as to citizens.” 533 U.S. at 301; accord Boumediene, 553 U.S. at 747 (“We know that at common law a
unlike in Boumediene, a noncitizen cannot seek review of the credible
fear determination in an Article III court. See 8 U.S.C. § 1252(e)(2);
cf. Boumediene, 553 U.S. at 767 (“And although the detainee can
seek review of his status determination in the Court of Appeals, that
review process cannot cure all defects in the earlier proceedings.”).
Accordingly, the procedural protections available to Thuraissigiam
and other noncitizens in expedited removal “fall well short of the
procedures and adversarial mechanisms that would eliminate the
need for habeas corpus review.” Boumediene, 553 U.S. at 767 (internal quotation marks omitted).
As to the second factor, there is no question that Thuraissigiam
was apprehended and detained within the sovereign territory of the
United States. This factor weighs strongly in favor of finding
Thuraissigiam has rights under the Suspension Clause. See id. at
768-69. The government insists that the nature and length of a noncitizen’s detention is relevant to this factor. Not so. Boumediene
only invokes these considerations under step two. The second factor (under step one) is wholly focused on the level and duration of
control exerted by the United States over the territory—which is not
at issue here, where the territory is the United States. Boumediene,
553 U.S. at 768-69.
As in Boumediene, the third factor is somewhat equivocal:
“there are costs to holding the Suspension Clause applicable in a
case of [asylum-seekers in expedited removal proceedings.]” Id. at
769. But “[c]ompliance with any judicial process requires some incremental expenditure of resources,” and direct review by the courts
already exists and functions in non-expedited removal proceedings.
Id. Thus, here, as in Boumediene, “[w]hile we are sensitive to [the
government’s] concerns, we do not find them dispositive.” Id.
Consequently, Boumediene’s extraterritorial step one factors, if
they were relevant here, would support application of the Suspension Clause.

33a
petitioner’s status as an alien was not a categorical bar
to habeas corpus relief.”); Rasul, 542 U.S. at 481 (“At
common law, courts exercised habeas jurisdiction over
the claims of aliens detained within sovereign territory
of the realm. . . . ”); see also Gerald L. Neuman, Habeas Corpus, Executive Detention, and the Removal of
Aliens, 98 Colum. L. Rev. 961, 989-90 (1998) (collecting
cases).
After the adoption of the Constitution and its Suspension Clause, courts in the United States applied the
same approach. For example, in Ex parte D’Olivera,
7 F. Cas. 853 (C.C.D. Mass. 1813) (No. 3,967), a federal
court in Massachusetts permitted an arrested noncitizen seaman to invoke habeas. In later years, the Supreme Court continued to hold that habeas was available
to noncitizens—even excluded noncitizens stopped at
the border. United States v. Jung Ah Lung, 124 U.S.
621, 628-32 (1888); see also Neuman, 98 Colum. L. Rev.
at 1006. Cases throughout the finality era, from the
1890s to the 1950s, which carry significant weight here,
held firm to this constitutional premise. In Nishimura
Ekiu v. United States, 142 U.S. 651 (1892), the Court affirmed that despite the finality law, “[a]n alien immigrant, prevented from landing by any such officer claiming authority to do so under an act of congress, and
thereby restrained of his liberty, is doubtless entitled to
a writ of habeas corpus to ascertain whether the restraint is lawful.” Id. at 660.
The Court continued that approach later in the finality era. Gegiow v. Uhl, 239 U.S. 3, 9 (1915) (“The courts
are not forbidden by the [finality] statute to consider
whether the reasons, when they are given, agree with
the requirements of the act.”). In Gegiow, for example,

34a
the Court reversed the government’s legal conclusion
that the petitioner was subject to exclusion as a public
charge based on a lack of labor opportunities in his immediate destination. Id. at 9-10; see also Shaughnessy
v. United States ex rel. Mezei, 345 U.S. 206, 212-13
(1953) (stating that even though a noncitizen who had
not entered the country lacks due process, he “may by
habeas corpus test the validity of his exclusion”); United
States ex rel. Knauff v. Shaughnessy, 338 U.S. 537, 544
(1950) (addressing, but rejecting, noncitizen’s “contention that the regulations were not ‘reasonable’ as they
were required to be [under a federal statute]”). In
United States ex rel. Accardi v. Shaughnessy, the Court
granted habeas on legal grounds to a noncitizen who entered from Canada “without immigration inspection and
without an immigration visa.” 347 U.S. 260, 262, 268
(1954). In Heikkila, the Court explained that the Constitution was the source for habeas review during the finality era, 345 U.S. at 234-35, and in St. Cyr, the Court
clarified that the Suspension Clause was the specific
source of such review. See 533 U.S. at 304. Indeed,
the government points to no alternative reading.
More broadly, the government offers no convincing
reason to discount the finality era, nor does it offer a
competing account of the common-law scope of the writ
or of the finality era. The government, citing Mezei,
345 U.S. at 214, answers Boumediene step one by contending that Thuraissigiam, “as an alien apprehended
immediately after crossing the border illegally, is no different from other aliens at the border, and is therefore
‘assimilated to [that] status’ for constitutional purposes.”
However, Mezei spoke only of such assimilation for the
purposes of due process, and it otherwise affirmed the
principle that habeas is available even when a petitioner

35a
lacks due process rights. Id. at 213. And, crucially,
Boumediene never linked Suspension Clause rights to
due process rights. The government provides no authority from Suspension Clause cases to support its contention that Thuraissigiam lacks Suspension Clause
rights. Because in the finality era the Court permitted
even arriving noncitizens to invoke habeas review, we
conclude that Thuraissigiam, who was arrested within
the United States, may invoke the Suspension Clause. 19
C.

Compliance with the Suspension Clause

Having concluded that Thuraissigiam may invoke the
Suspension Clause, we must consider at Boumediene
step two whether habeas review under § 1252(e) is so
limited so as effectively to suspend the writ as applied to
Thuraissigiam. At a minimum, the Suspension Clause
“entitles the [petitioner] to a meaningful opportunity to
demonstrate that he is being held pursuant to ‘the erroneous application or interpretation of relevant law.’ ”
Boumediene, 553 U.S. at 779 (quoting St. Cyr, 553 U.S.
at 302).
Congress may modify the scope of habeas review
so long as the review “is neither inadequate nor ineffective to test the legality of a person’s detention.” Swain v.
Pressley, 430 U.S. 372, 381 (1977); see Crater v. Galarza,
491 F.3d 1119, 1124-25 (9th Cir. 2007) (noting, in the context of a challenge to AEDPA, that not all restrictions
on habeas review effectively suspend the writ). We
In so doing, we reject any argument that only noncitizens who
have “been lawfully admitted” may invoke the Suspension Clause.
Because the writ is an indispensable separation of powers mechanism, “[t]he test for determining the scope of this provision must not
be subject to manipulation by those whose power it is designed to
restrain.” Boumediene, 553 U.S. at 765-66.
19

36a
bear in mind that “[a]t its historical core, the writ of habeas corpus has served as a means of reviewing the
legality of Executive detention, and it is in that context
that its protections have been strongest.” St. Cyr,
533 U.S. at 300-01; see also Boumediene, 553 U.S. at 783
(noting that in cases of executive detention, “the need
for habeas corpus is more urgent”). Therefore, when
evaluating whether a substitute is adequate, we consider
“the rigor of any earlier proceedings” and “the intended
duration of the detention and the reasons for it.” Id. at
781, 783.
The government urges a different approach to step
two. The government contends that Thuraissigiam’s
status matters to the extent of review the Suspension
Clause requires. The government even suggests we
should apply the Boumediene step one extraterritorial
factors to determine whether § 1252(e)(2) provides sufficient review. However, those factors have no bearing
on step two; only step one considers the petitioner’s status. See Boumediene, 533 U.S. at 773-93 (considering,
without any reference to Guantanamo detainees’ status,
whether the DTA was an adequate habeas statute by assessing “the sum total of procedural protections afforded
to the detainee at all stages, direct and collateral”).
Both logically and as applied in Boumediene, the circumstances relevant to step two—the extent of review
the Suspension Clause requires—are those relating to
the detainer, not the detainee. We also reject the government’s contention that because, in its view, Thuraissigiam lacks due process rights, there are no rights for
the Suspension Clause to protect. Boumediene foreclosed that argument by holding that, whether or not
due process was satisfied, the Suspension Clause might
require more. 553 U.S. at 785.

37a
As a reminder, Thuraissigiam’s petition contends that
the government denied him a “fair procedure,” “appl[ied]
an incorrect legal standard” to his credible fear contentions, and “fail[ed] to comply with the applicable statutory and regulatory requirements.” The core of his claim
is that the government failed to follow the required procedures and apply the correct legal standards when
evaluating his credible fear claim. As Thuraissigiam’s
brief states: “Petitioner’s claims merely assert his
right to the meaningful credible fear procedure to which
he is entitled under the immigration statute, regulations,
and Constitution.” We therefore consider whether the
Suspension Clause requires review of those claims. 20
We conclude that the Clause requires such review in
Thuraissigiam’s case and that because § 1252(e)(2) fails
to provide a meaningful opportunity for such review, it
raises serious Suspension Clause questions.

Thuraissigiam’s petition indicates that he might be asking a federal court to review the agency’s credible fear determination, as he
contends that he “can show a significant possibility of prevailing on
his claims for asylum and other forms of relief.” The government
accordingly contends that Thuraissigiam’s petition instead requests
“ultimate application of a legal standard to factual determinations
and weighing of evidence underlying the Executive’s negative
credible-fear findings.” However, we read Thuraissigiam’s petition to be explaining why, in his view, DHS’ procedural errors matter, particularly given his express assertion that he only wants review of the procedural errors. We therefore do not consider here
whether the Suspension Clause requires judicial review of DHS’
credible fear determination on the merits. Cf. Ortiz-Alfaro v.
Holder, 694 F.3d 955, 958 (9th Cir. 2012) (noting, based on St. Cyr,
that “depriving [petitioner] the opportunity for judicial review of a
determination that he lacks a reasonable fear of persecution could
raise serious constitutional concerns”).
20

38a
At step two, the finality era again informs our analysis of what the Suspension Clause requires when a removal order is challenged. Finality era precedent establishes that the Court regularly reviewed on habeas
“claims for statutory as well as constitutional error in
deportation proceedings” and “claims that deportation
hearings were conducted unfairly.” Flores-Miramontes,
212 F.3d at 1143 (citing, inter alia, Fong Haw Tan v.
Phelan, 333 U.S. 6, 8-10 (1948) (interpreting statute on
habeas)); Kessler v. Strecker, 307 U.S. 22, 33-34 (1939)
(same)). In Gegiow, the Court also reviewed the executive’s application of a legal standard to undisputed
facts, concluding that the government had incorrectly
determined that the petitioner was likely to become a
public charge. 239 U.S. at 9-10. Similarly, we have interpreted the nature of habeas review, encompassing inquiry into “the erroneous application or interpretation
of statutes,” St. Cyr, 533 U.S. at 302, to require that
“mixed questions of fact and law—those involving an application of law to undisputed fact . . . be provided
meaningful judicial review.” Ramadan v. Gonzales,
479 F.3d 646, 652 (9th Cir. 2007) (per curiam).
Thuraissigiam and amici point us to other examples
of the Court reviewing not just pure legal questions like
the one at issue in St. Cyr, but also the application of a
legal standard to undisputed facts. See, e.g., Hansen v.
Haff, 291 U.S. 559, 562-63 (1934) (rejecting government
determination that “petitioner’s entry was for the purpose” of immoral relations); Mahler v. Eby, 264 U.S. 32,
44 (1924) (holding that the government failed to comply
“with all the statutory requirements”). Those cases suggest that the Suspension Clause requires review of legal
and mixed questions of law and fact related to removal
orders, including expedited removal orders.

39a
As in Boumediene, the decision to place a noncitizen
in expedited removal and the finding of whether that
noncitizen has a credible fear are both executive determinations, meaning that the requirements of habeas are
“more urgent.” Cf. Boumediene, 553 U.S. at 783. While
the duration of Thuraissigiam’s detention may seem to
cut against review, the Court has recognized that an excluded person’s “movements are restrained by authority
of the United States.” Mezei, 345 U.S. at 213. Moreover, “it would be difficult to say that [Thuraissigiam]
was not imprisoned, theoretically as well as practically,
when to turn him back meant that he must get into a
vessel against his wish and be carried to [Sri Lanka].”
Chin Yow v. United States, 208 U.S. 8, 12 (1908). The
finality era cases also demonstrate that habeas is a viable means of reviewing exclusion and removal orders.
Most important, habeas review provides important
oversight of whether DHS complied with the required
credible fear procedures. 21 Under the existing administrative scheme, there are no rigorous adversarial proceedings prior to a negative credible fear determination.
First, the credible fear interview is initiated only after
the CBP officer identifies a noncitizen who fears persecution and refers that individual to a USCIS officer.
See 8 C.F.R. § 235.3(b)(4); see also Refugee and Human
Section 1252(e)(2) also restricts judicial oversight of whether the
agency properly placed a person in expedited removal in the first
place: “The troubling reality of the expedited removal procedure
is that a CBP officer can create the § 1182(a)(7) charge by deciding
to convert the person’s status from a non-immigrant with valid papers to an intending immigrant without the proper papers, and then
that same officer, free from the risk of judicial oversight, can confirm
his or her suspicions of the person’s intentions and find the person
guilty of that charge.” Khan, 608 F.3d at 329.
21

40a
Rights Amicus Br. 11-12. A noncitizen can consult with
someone at his own expense before his asylum officer
interview, but only as long as such consultation does not
“unreasonably delay the process and is at no expense to
the government.” 8 C.F.R. § 208.30(d)(4). Before the
IJ hearing, a noncitizen in expedited removal may again
consult with someone at his own expense, but the period
to obtain such assistance is extremely abbreviated: an IJ
“shall conclude the review to the maximum extent practicable within 24 hours” of the supervisory officer’s approval of the asylum officer’s determination. 8 C.F.R.
§ 1003.42(c), (e). Such review may take place “in person or via telephonic or video connection.” Jaya Ramji,
Legislating Away International Law: The Refugee Provisions of the Illegal Immigration Reform and Immigrant Responsibility Act, 37 Stan. J. Int’l L. 117, 134-41
(2001). There is also no requirement that the IJ provide reasons for her decision. Indeed, in this case, the
IJ simply checked a box on a form stating that the immigration officer’s decision was “Affirmed.”
These meager procedural protections are compounded
by the fact that § 1252(e)(2) prevents any judicial review
of whether DHS complied with the procedures in an individual case, or applied the correct legal standards. 22
We think it obvious that the constitutional minimum—
whether Thuraissigiam was detained pursuant to the
One amicus brief describes reports that the agency does not always follow the required procedures. See Refugee and Human
Rights Amicus Br. 16-27; see also Michele R. Pistone & John J.
Hoeffner, Rules Are Made to Be Broken: How the Process of Expedited Removal Fails Asylum Seekers, 20 Geo. Immigr. L.J. 167,
175-93 (2006) (describing procedural errors commonly committed
during the expedited removal process). If true, those reports only
underscore the need for judicial review.
22

41a
“erroneous interpretation or application of relevant
law”—is not satisfied by such a scheme. 23 Our conclusion is bolstered by the Third Circuit’s recent decision
in Osorio-Martinez.
As Osorio-Martinez put it,
§ 1252(e)(2) fails to provide “even [that] ‘uncontroversial’
baseline of review” required by Boumediene. 893 F.3d
at 177. Because the statute prevented the district court
from considering whether the agency lawfully applied
the expedited removal statute, it a fortiori precluded review of “the erroneous application or interpretation of
relevant law.” Id. (citing Boumediene, 553 U.S. at 779).
So too here, because § 1252(e)(2) prevents a court from
reviewing claims of procedural error relating to a negative credible fear determination, it precludes review of
the agency’s application of relevant law and thus raises
serious Suspension Clause questions. 24 Plenary power
concerns cannot in all circumstances overwhelm the “fundamental procedural protections of habeas corpus . . . ,
a right of first importance.” Boumediene, 553 U.S. at
798.
A petitioner’s perceived ultimate desire—as Judge Hardiman
put it in Castro, to “alter their status in the United States in the hope
of avoiding release to their homelands,” 835 F.3d at 450-51 (Hardiman, J., concurring dubitante)—is not relevant where a petitioner
challenges the fairness of specific procedures leading to an expedited removal order.
24
Because Thuraissigiam’s petition does not present the question,
we do not consider one amicus’ argument that “there is a compelling
case for allowing habeas courts to review factual challenges to an
expedited removal order.” Scholars of Habeas Corpus Law Amicus
Br. 18. “Generally . . . the court will not consider arguments
raised only in amicus briefs.” United States v. Wahchumwah,
710 F.3d 862, 868 (9th Cir. 2013) (citation omitted); see also Russian
River Watershed Prot. Comm. v. City of Santa Rosa, 142 F.3d 1136,
1141 n.1 (9th Cir. 1998).
23

42a
IV. The Canon of Constitutional Avoidance

We further decline to interpret § 1252(e)(2) to avoid
the serious Suspension Clause problems engendered by
the statute. The constitutional avoidance canon applies “if an otherwise acceptable construction of a statute would raise serious constitutional problems, and
where an alternative interpretation of the statute is
‘fairly possible.’ ” St. Cyr, 533 U.S. at 299-300 (citation
omitted); see also Ramadan, 479 F.3d at 654 (“The Supreme Court has been careful to construe statutes in
light of the Suspension Clause.”). However, for us to apply the canon, the statute in question must be “susceptible of more than one construction.” Clark v. Martinez,
543 U.S. 371, 385 (2005).
As explained at length above, we and other courts have
consistently interpreted § 1252(e)(2) to foreclose review
of claims like Thuraissigiam’s. Section 1252(a)(2)(A)(i)
precludes review of “any other cause or claim arising
from or relating to the implementation of or operation
of ” an expedited removal order, which clearly bars
claims relating to procedural error. We do not think
the statute can bear a reading that avoids the constitutional problems it creates.
•

•

•

Therefore, we hold that § 1252(e)(2) violates the Suspension Clause as applied to Thuraissigiam, although we
do not profess to decide in this opinion what right or
rights Thuraissigiam may vindicate via use of the writ.
The district court has jurisdiction and, on remand,
should exercise that jurisdiction to consider Thuraissigiam’s legal challenges to the procedures leading to his
expedited removal order.

43a
The judgment of the district court is REVERSED and
the case is REMANDED for further proceedings consistent with this opinion.

44a
APPENDIX B
UNITED STATES DISTRICT COURT
FOR THE SOUTHERN DISTRICT OF CALIFORNIA

Case No. 18-cv-00135-AJB-AGS
VIJAYAKUMAR THURAISSIGIAM, PETITIONER
v.
UNITED STATES DEPARTMENT OF HOMELAND
SECURITY, ET AL., RESPONDENTS
[Filed: Mar. 8, 2018]
ORDER:
(1) DISMISSING CASE WITH PREJUDICE
FOR LACK OF JURISDICTION;
(2) DENYING PETITIONER’S EMERGENCY
MOTION TO STAY;
(3) DENYING RESPONDENTS’ MOTION
TO DISMISS AS MOOT;
(4) DENYING PETITIONER’S EX PARTE
APPLICATION FOR TEMPORARY STAY
AS MOOT; AND
(5) DENYING THE JOINT MOTION TO SHORTEN
TIME FOR PETITIONER’S EMERGENCY
MOTION FOR STAY OF REMOVAL AS MOOT

(Doc. No. 1, 25, 52, 53, 54)

45a
There are several motions currently pending before
the Court. Most notable is Petitioner Vijayakumar
Thuraissigiam’s emergency motion for stay of his removal, (Doc. No. 52), and its related motions—Petitioner’s
ex parte application for a temporary stay pending his
emergency motion for stay of removal, (Doc. No. 53),
and the joint motion to shorten time for Petitioner’s
emergency motion for stay of removal, (Doc. No. 54).
Pursuant to Civil Local Rule 7.1.d.1, the Court finds
these matters suitable for determination on the papers
and without oral argument. As will be explained in
great detail below, the Court finds that it does not have
jurisdiction to hear the instant habeas petition and thus
DISMISSES the Petition. (Doc. No. 1.) Consequently,
Petitioner’s motion for stay of removal is DENIED and
the remainder of the pending motions on the docket are
DENIED AS MOOT . (Doc. Nos. 25, 52, 53, 54.)
I.

BACKGROUND

Petitioner is a forty-six year old Sri Lankan Tamil man.
(Doc. No. 1 ¶¶ 34, 35.) Tamil is an ethnic minority group
in Sri Lanka. (Id. ¶ 35.) Beginning in the 1980s, a civil
war between government forces and the Tamil separatist group, Liberation Tigers of Tamil Eelam (“LTTE”),
began. (Id.) In 2002, a cease fire was declared, however the cease fire collapsed in 2006. (Id. ¶¶ 36, 38.)
In 2004, during the political elections, Petitioner
worked on behalf of M.K Shivajilingam, a candidate for
parliament with the Tamil National Alliance. (Id. ¶ 37.)
In 2007, Petitioner was then ordered to report to a Sri
Lankan Army camp where he was detained and beaten,
but was eventually released. (Id. ¶ 38.) Subsequently
in 2009, the Sri Lankan government defeated the LTTE
ending the civil war. (Id. ¶ 39.)

46a
Thereafter in 2013, Petitioner again assisted Mr.
Shivajilingam in his run as a candidate for provincial
election. (Id. ¶ 40.) Petitioner’s responsibilities were
similar to those he held in 2004 and they included arranging public meetings in support of Mr. Shivajilingam. (Id. ¶¶ 37, 40.)
In 2014, Petitioner was approached by men on his farm
who identified themselves as government intelligence officers and called Petitioner by his name. (Id. ¶ 41.) Petitioner was then pushed into a van where he was bound,
beaten, and interrogated about his political activities
and connection to Mr. Shivajilingam. (Id. ¶¶ 41, 42.)
Petitioner then endured additional torture before he
woke up in a hospital where he spent several days recovering. (Id. ¶¶ 42, 43.) Currently, Petitioner still suffers from numbness in his left arm and has scars from
his beatings. (Id. ¶ 43.)
After these events, Petitioner went into hiding in Sri
Lanka and India, and then in 2016 he fled the country.
(Id. ¶ 44.) Petitioner then made his way through Latin
America, where he was finally able to reach the U.S.Mexico border. (Id.)
On February 17, 2017, Petitioner entered the United
States where he was apprehended by a Border Patrol
Agent patrolling the area of “Goats Canyon” four miles
west of the San Ysidro Port of Entry. 1 (Id. ¶ 45; Doc.
No. 25-1 at 15.) According to Petitioner, he was then
afforded only a “cursory administrative asylum hearing” and then was issued an expedited removal order
pursuant to 8 U.S.C. § 1225(b)(1) after the government
The Court notes that Respondents state that Petitioner was apprehended on February 18, 2017. (Doc. No. 25-1 at 15.)
1

47a
determined that he did not have a credible fear of persecution. (Doc. No. 1 at 3, 13.) Petitioner argues that
absent court intervention, he will be deported to Sri
Lanka, where he will no doubt face further beatings, torture, and death because of his political associations.
(Id. at 3.) Petitioner is currently detained at the Otay
Mesa Detention Center in San Diego, California. (Id.)
Petitioner filed his petition on January 19, 2018. 2
(Doc. No. 1.) On March 5, 2018, Respondents filed their
motion to dismiss. (Doc. No. 25.) Briefing has not yet
been completed on this motion. Thereafter, on March 7,
2018, in short succession, and after Court operating
hours, Petitioner filed his emergency motion for stay of
removal, his ex parte application, and both parties filed
their joint motion to shorten time. (Doc. Nos. 52, 53, 54.)

Petitioner’s Petition alleges that the process that led to his expedited removal order was “wholly inadequate.” (Doc. No. 1 at 13.)
Specifically, Petitioner contends that (1) the asylum officer violated
his duty “to elicit all relevant and useful information bearing on
whether [he] has a credible fear of persecution or torture[]”; (2) there
were communication problems throughout the interview; (3) there
were a number of legal errors, including the asylum officers’ failure
to consider relevant country conditions evidence that Tamils are
subject to torture; (4) the asylum officer should have been aware of
the widespread country conditions evidence; and (5) the hearing before the immigration judge was procedurally and substantively
flawed. (Id. at 13-15.) Thus, Petitioner requests an order directing Respondents to show cause why the writ should not be granted,
declare Petitioner’s expedited removal order contrary to law, direct
Respondents to vacate the expedited removal order, and issue a writ
directing Respondents to provide Petitioner a new opportunity to
apply for asylum and other applicable forms of relief. (Id. at 18.)
2

48a
II.

LEGAL STANDARD

Federal Rule of Civil Procedure 12(b)(1) allows a motion to dismiss where a court lacks subject-matter jurisdiction. Because “[f ]ederal courts are courts of limited
jurisdiction[,]” a court “presume[s] that a cause [of action] lies outside this limited jurisdiction[.]” Kokkonen v.
Guardian Life Ins. Co. of Am., 511 U.S. 375, 377 (1994).
A Rule 12(b)(1) motion “can attack the substance of a
complaint’s jurisdictional allegations despite their formal sufficiency, and in so doing rely on affidavits or any
other evidence properly before the court.” St. Clair v.
City of Chico, 880 F.2d 199, 201 (9th Cir. 1989). No presumption of truthfulness attaches to the allegations of
the plaintiff ’s complaint as the plaintiff bears the burden
of establishing subject matter jurisdiction. Thornhill
Publ’g. Co. v. Gen. Tel. & Elec. Corp., 594 F.2d 730, 733
(9th Cir. 1979). Thus, the court must presume it lacks
jurisdiction until subject matter jurisdiction is established.
Stock West, Inc. v. Confederated Tribes, 873 F.2d 1221,
1225 (9th Cir. 1989). Any party may raise a defense
based on lack of subject matter jurisdiction at any time.
See Attorneys Trust v. Videotape Computer Products,
Inc., 93 F.3d 593, 594-95 (9th Cir. 1996).
III. DISCUSSION

Cognizant that Respondents’ motion to dismiss is
based solely on arguing that this Court has no jurisdiction to hear his claims, Petitioner’s emergency motion
for a stay of removal devotes an entire section to asserting that this Court has jurisdiction to hear his Petition
under 8 U.S.C. § 1252(e)(2)(B) and the Suspension Clause.
(Doc. No. 52-1 at 24.) Regrettably, despite all of the
arguments produced and the urgency and nature of the
Petition and motions, the Court finds that it does not

49a
have subject matter jurisdiction over Petitioner’s habeas claims.
Congress expressly deprived courts of jurisdiction to
hear a direct appeal from an expedited removal order.
See 8 U.S.C. § 1252(a)(2) (limiting review of expedited removal orders to habeas review under § 1252(e)). Section
1252(e) states that:
Judicial review of any determination made under section 1225(b)(1) of this title is available in habeas corpus proceedings, but shall be limited to determinations
of—(A) whether the petitioner is an alien, (B) whether
the petitioner was ordered removed under such section, and (C) whether the petitioner can prove by a
preponderance of the evidence that the petitioner is
an alien lawfully admitted for permanent residence,
has been admitted as a refugee under section 1157 of
this title, or has been granted asylum under section
1158 of this title[.]
8 U.S.C. § 1252(e)(2).3 The Ninth Circuit holds that this
statute “strictly circumscribes the scope of review of expedited removal orders to the grounds enumerated in
§ 1252(e).” Garcia de Rincon v. Dep’t of Homeland Sec.,
539 F.3d 1133, 1138 (9th Cir. 2008). Thus, “[b]y the clear

As currently pled, the Court notes that the three asserted bases
for habeas review under § 1252(e) have already been conceded by
Petitioner. Petitioner’s petition states that he is a native and citizen of Sri Lanka who fled to the United States in February of 2017.
(Doc. No. 1 ¶ 4.) Second, it is uncontested that Petitioner was ordered removed. (Id. ¶ 51.) Finally, Petitioner does not provide
any evidence to demonstrate that he has been admitted to the United
States as a permanent resident, or was granted asylum prior to his
expedited removal. (See generally Doc. No. 1.)
3

50a
operation of these statutes, federal courts are jurisdictionally barred from hearing direct challenges to expedited removal orders.” Torre-Flores v. Napolitano,
No. 11-CV-2698-IEG (WVG), 2012 WL 3060923, at *2
(S.D. Cal. July 25, 2012) (citation and internal quotation
marks omitted).
Despite the Act’s narrow, limited, and explicit terms,
Petitioner seeks to have this Court review his habeas
petition under the second factor—whether Petitioner
was ordered removed. (Doc. No. 52-1 at 28.) Petitioner
contends that § 1252(e)(2)(B) “permits review of the
type of threshold question presented here: whether Petitioner was ‘ordered removed[.]’ ” (Id. at 29.) Furthermore, Petitioner states that “there must be review of
whether the negative credible fear determination was
properly made—a prerequisite for issuing the expedited
removal order.” (Id.)
Unfortunately, the preceding assertions are not only
wholly unsupported by applicable case law, but they also
amount to nothing more than Petitioner’s own self-serving
assumptions. First, the Court notes that in determining
whether an alien has been removed under § 1252(e)(2)(B),
“the court’s inquiry shall be limited to whether such an
order in fact was issued and whether it relates to the petitioner.” 8 U.S.C. 1252(e)(5). The Court declines to
broaden and expand the clear writing of this section of
the Act to include the characterization Petitioner impresses on the Court. Moreover, the Court rejects Petitioner’s contention that § 1252(e)(2)(B) is ambiguous.
(Doc. No. 52-1 at 30.) There could be nothing further
from the truth.

51a
Next, and most importantly for purposes of the instant Petition, the clear case law from this circuit forecloses this Court’s ability to evaluate the negative credible fear determination that resulted in Petitioner’s expedited removal order. See Galindo-Romero v. Holder,
621 F.3d 924, 928 n.4 (9th Cir. 2010) (noting that “§ 1252(e)
permits review of expedited removal orders only in a
habeas corpus petition, and even then review is strictly
limited to the three discrete inquiries set forth in
§ 1252(e)[.]”); see also Garcia de Rincon, 539 F.3d at
1140 (finding that both the circuit court and the district
court were jurisdictionally barred from hearing the habeas petition challenging an expedited removal order);
Brumme v. INS, 275 F.3d 443, 447-48 (5th Cir. 2001) (rejecting claim that section 1252(e) permits habeas review
of whether section 1225(b)(1) was applicable to petitioner); Vaupel v. Ortiz, 244 F. App’x 892, 895 (10th Cir.
2007) (“The language of the statute clearly and unambiguously precludes review in a habeas proceeding of
‘whether the alien is actually inadmissible or entitled to
any relief from removal.’ ”).
Further, the Court notes that Petitioner’s use of
Smith v. U.S. Customs and Border Protection, 741 F.3d
1016 (9th Cir. 2014), to argue that this Court has jurisdiction to decide whether he received a fair and credible
fear interview is misplaced. (Doc. No. 52-1 at 30.) Explicitly, Petitioner argues that Smith addresses a claim
“conceptually similar” to his own. (Id.)
In Smith, the petitioner, a native and citizen of Canada, drove his motor home to the Port of Entry at Oroville,
Washington and sought entry into the United States.
Smith, 741 F.3d at 1018. Ultimately, the CBP determined that Smith was seeking to enter the United States

52a
to work and thus classified him as an “intending immigrant” under § 212(a)(7)(A)(i)(l) of the Immigration and
Nationality Act (“INA”). Id. at 1018-19. However, as
Smith lacked documentation permitting him to work in
the United States, the CBP found him inadmissible and
placed him in expedited removal proceedings. Id. at
1019. Smith was removed to Canada the same day and
never gained entry to the United States. Id.
Smith then filed a petition for writ of habeas corpus
arguing that the CBP exceeded its authority under
the removal statute. Id. The district court dismissed
Smith’s petition for lack of subject matter jurisdiction.
Id. The Ninth Circuit also denied the petition. Id.
However, it noted that if there was no custody requirement to adhere to, that it had limited jurisdiction under
§ 1252(e)(2)(B) to consider whether Smith was “ordered
removed[.]” Id. at 1020. However, Smith was still not
entitled to the relief he sought as § 1252(e)(2) did not
permit the court to “consider any further collateral challenge.” Id. at 1018.
It is undisputable to the Court that Smith has no
bearing on the current matter. Unlike Smith, Petitioner
gained entry into the United States and is still currently
being held in the United States. (Doc. No. 1 ¶ 45.)
Most importantly, the underlying reasons for the petition in Smith and the instant case are completely dissimilar. In Smith, the petitioner argued that he was a
“Canadian to whom the documentary requirements for
admission did not apply.” Smith, 741 F.3d at 1021.
Thus, he alleged that the CBP exceeded its authority as
it could not lawfully remove him. Id. In direct contrast,
the instant petition involves Petitioner’s claims that his
negative credible fear determination was based off of

53a
numerous legal errors. (Doc. No. 1 at 14.) Accordingly,
the blatant factual dissimilarities between the instant
case and Smith render Petitioner’s argument that Smith
stands for the proposition that the expedited removal
statute permits the type of “narrow legal claim” that he
raises in his Petition meritless. (Doc. No. 52-1 at 30.)
In sum, the Court follows the clear precedent set
forth by the Ninth Circuit and its sister circuits and concludes that it does not have subject matter jurisdiction
to hear Petitioner’s claims challenging his removal order.
See Rodaz v. Lynch, 656 F. App’x 860, 861 (9th Cir. 2016)
(“To the extent Ramirez Rodaz challenges the underlying 2010 expedited removal order, we lack jurisdiction
to consider this collateral attack.”) (citation omitted);
see also United States v. Barajas-Alvarado, 655 F.3d
1077, 1082 (9th Cir. 2011) (holding that the INA “precludes meaningful judicial review of the validity of the
proceedings that result in an expedited removal order.”).
Further, the Court disagrees with Petitioner’s characterization and application of the Suspension Clause in
his case. Petitioner argues that the Suspension Clause
would be violated if immigration statutes precluded this
Court from reviewing his claims. (Doc. No. 52-1 at 24.)
Additionally, from what the Court can discern, Petitioner attempts to assert that by dismissing his Petition
for lack of jurisdiction, the Court is in essence denying
him “judicial review over [all of his] legal claims[, which]
violates the Suspension Clause[.]” (Id. at 26.) Petitioner then refers to a litany of cases to support the
broad contention that the Suspension Clause applies to
him. (Id. at 26-27.)

54a
Regrettably, Petitioner’s arguments miss the mark.
The Court does not dispute that the Suspension Clause applies to Petitioner. Instead, the Court finds that the
strict restraints on this Court’s jurisdictional reach to review expedited removal orders does not violate the Suspension Clause. As discussed in Pena v. Lynch, 815 F.3d
452, 456 (9th Cir. 2015), both the Supreme Court and this
Circuit “have suggested that a litigant may be unconstitutionally denied a forum when there is absolutely no avenue for judicial review of a colorable claim of constitutional deprivation.” Here, § 1252(e) still “retain[s] some
avenues of judicial review, limited though they may be.”
Id. Thus, the Suspension Clause remains intact. See
Garcia de Rincon, 539 F.3d at 1141-42 (finding the narrow habeas review under the expedited removal regime
does not violate the Suspension Clause); see also Castro
v. U.S. Dep’t of Homeland Sec., 163 F. Supp. 3d 157, 169
(E.D. Pa. 2016) (finding that § 1252’s restrictions on judicial review do not offend a petitioner’s rights under
the Suspension Clause).
Further, Petitioner’s reliance on INS v. St. Cyr,
533 U.S. 289 (2001), is erroneous. (Doc. No. 52-1 at 25.)
Petitioner claims that per St. Cyr, noncitizens always
have judicial review to challenge their deportation orders, that the scope of the review must include both constitutional and legal challenges to deportation orders,
and that the absence of such review would violate the
Suspension Clause. (Id.) However, unlike the instant
matter, St Cyr did not involve an alien subject to a removal
order. Instead, the petitioner in St Cyr was a lawful permanent resident of the United States who pled guilty in
state court to the selling of a controlled substance. St
Cyr, 533 U.S. at 293. Additionally, St Cyr analyzed the
impact of the Antiterrorism and Effective Death Penalty

55a
Act of 1996 and the Illegal Immigration Reform and Immigrant Responsibility Act of 1996 amendments and their
availability under habeas corpus jurisdiction—28 U.S.C.
§ 2241. Id. at 292. This issue is not present in Petitioner’s case, which solely deals with the expedited removal provisions restricting § 2241 habeas corpus jurisdiction. See Li v. Eddy, 259 F.3d 1132, 1135 (9th Cir.
2001) (explaining that the restricted habeas review of
expedited removal orders “does not implicate the jurisdictional issues” raised in St Cyr), vacated on other
grounds by 324 F.3d 1109 (9th Cir. 2003).
Finally, if Petitioner’s challenge can be read as a generalized challenge to his expedited removal, jurisdiction
is specifically limited to actions “instituted in the United
States District Court for the District of Columbia[.]”
8 U.S.C. § 1252(e)(3)(A). The Ninth Circuit has repeatedly recognized this explicit jurisdictional interdiction.
E.g., United States v. Barragan-Camarillo, 460 F. App’x
637, 639 (9th Cir. 2011) (“[S]ystemic constitutional challenges to the expedited removal statute or its implementing regulations . . . may [only] be brought in
limited circumstances in the United States District
Court for the District of Columbia.”); Li, 259 F.3d at
1136 (same).
Accordingly, based on the foregoing, the Court rejects Petitioner’s claims that the jurisdictional limitations of § 1252(e) violate the Suspension Clause.
On a final note, the Court points Petitioner to Castro
v. U.S. Dep’t of Homeland Sec., 163 F. Supp. 3d 157
(E.D. Pa. 2016), to further support the Court’s conclusion that it lacks subject matter jurisdiction to hear the
current Petition. The Court is cognizant that this case
is not dispositive, however, as the factual background

56a
and habeas claims are identical to the present matter,
its analysis and ultimate conclusion are incredibly persuasive to the Court.
In Castro, twenty-nine Central American women
were seized after their illegal entry into the United
States. Castro, 163 F. Supp. 3d at 158. Finding that
none of them had a credible fear of torture upon returning to Central America, DHS ordered their expedited
removal. Id. They then sought habeas relief arguing
that the Act’s credible fear evaluation process was inadequate and resulted in erroneous negative credible fear
determinations. Id.
Taking each of the petitioners’ arguments in turn, the
district court held that the INA precluded the court’s
review of their negative credible fear determinations,
that there is no ambiguity to the Act’s jurisdictional requirements and “[t]o find otherwise would require [the
court] to do violence to the English language to create
an ‘ambiguity’ that does not otherwise exist[,]” and that
the petitioners had limited habeas rights to challenge
the “procedural and substantive soundness of their negative credible fear determinations and expedited removal orders,” thus, the Act’s limitations did not offend
any Suspension Clause rights. Id. at 165-69.
In light of the clear holdings from this circuit and others, holdings that have not yet been disturbed, the Court
concludes that it cannot analyze Petitioner’s expedited removal order or his claims that his negative credible fear
determination was in error. Thus, the Court DISMISSES
the Petition for lack of subject matter jurisdiction.

57a
IV. CONCLUSION

The Court does not downplay the important role
courts across the nation have in safeguarding the reliability and fairness of the immigration process. However, no matter how credible Petitioner’s claims of fear
may be and the purported harsh consequences that may
come to him if he is removed to his native country, the
limited scope of this Court’s judicial review over expedited removal orders restricts it from hearing Petitioner’s claims.
Accordingly, the Petition is DISMISSED WITH PREJUDICE for lack of subject matter jurisdiction. As a result, as there is no likelihood of success on the merits to
support Petitioner’s emergency motion for stay of removal, this motion is DENIED. (Doc. No. 52 (see Nken
v. Holder, 556 U.S. 418, 426 (2009)). Thus, Respondents’ motion to dismiss, Petitioner’s ex parte application
for a stay of removal pending his emergency motion, and
the joint motion to shorten time for Petitioner’s emergency motion for stay of removal are DENIED AS MOOT.4
(Doc. Nos. 25, 53, 54.) The Clerk of Court is DIRECTED
to CLOSE this case.

The Court notes that Respondents were not given time to respond to Petitioner’s motion to stay removal and ex parte application. However, the Court finds that Respondents’ motion to dismiss fully addressed the jurisdictional issues. Therefore, it is tantamount to a reply to the various motions filed on March 7, 2018.
4

58a
IT IS SO ORDERED .

Dated:

Mar. 8, 2018
/s/

HON. ANTHONY J. BATTAGLIA
HON. ANTHONY J. BATTAGLIA
United States District Judge

59a
APPENDIX C
UNITED STATES DISTRICT COURT
FOR THE SOUTHERN DISTRICT OF CALIFORNIA

Civil Action No. 18-cv-0135-AJB-AGS
VIJAYAKUMAR THURAISSIGIAM, PLAINTIFF
v.
U.S. DEPARTMENT OF HOMELAND SECURITY
(“DHS”); U.S. CUSTOMS AND BORDER
PROTECTION, (CBP); U.S. CITIZENSHIP AND
(SEE ATTACHMENT FOR ADDT’L DEFENDANTS),
DEFENDANT

[Filed: Mar. 8, 2018]
JUDGMENT IN A CIVIL CASE
Decision by Court.

This action came to trial or hearing
before the Court. The issues have been tried or heard
and a decision has been rendered.
IT IS HEREBY ORDERED AND ADJUDGED:
The Petition is DISMISSED WITH PREJUDICE for
lack of subject matter jurisdiction. As a result, as
there is no likelihood of success on the merits to support
Petitioner’s emergency motion for stay of removal, this
motion is DENIED. (Doc. No. 52 (see Nken v. Holder,
556 U.S. 418, 426 (2009)). Thus, Respondents’ motion
to dismiss, Petitioner’s ex parte application for a stay of
removal pending his emergency motion, and the joint

60a
motion to shorten time for Petitioner’s emergency motion for stay of removal are DENIED AS MOOT.4
(Doc. Nos. 25, 53, 54.) The Clerk of Court is DIRECTED
to CLOSE this case.
Date:

3/8/18
CLERK OF COURT
JOHN MORRILL, Clerk of Court

By:

/s/

A. CORSELLO
A. CORSELLO, Deputy

61a
UNITED STATES DISTRICT COURT
FOR THE SOUTHERN DISTRICT OF CALIFORNIA

Civil Action No. 18-cv-0135-AJB-AGS
(ATTACHMENT)
Immigration Services, (USCIS); U.S. Immigration and
Customs Enforcement, (ICE); Kirtjen Nielsen, Secretary of DHS; Jefferson Beauregard Sessions, III, Attorney General of the United States; Kevin K. McAleenan,
Acting Commissioner of CBP; Thomas Homan, Acting
Director of ICE; L. Francis Cissna, Director of USCIS;
Pete Flores, San Diego Field Director, CBP; Gregory
Archambeault, San Diego Field Office Director, ICE;
Fred Figueroa, Warden, Otay Mesa Detention Center,
Defendants.

62a
APPENDIX D

1. U.S. Const. Art. I, § 9, Cl. 2 (Suspension Clause)
provides:
The Privilege of the Writ of Habeas Corpus shall not be
suspended, unless when in Cases of Rebellion or Invasion the public Safety may require it.
2.

8 U.S.C. 1101(a)(42)(A) provides:

Definitions

(a)

As used in this chapter—

(42) The term “refugee” means (A) any person
who is outside any country of such person’s nationality or, in the case of a person having no nationality, is
outside any country in which such person last habitually resided, and who is unable or unwilling to return to, and is unable or unwilling to avail himself or
herself of the protection of, that country because of
persecution or a well-founded fear of persecution on
account of race, religion, nationality, membership in
a particular social group, or political opinion, or
3.

8 U.S.C. 1158 provides:

Asylum
(a)

Authority to apply for asylum

(1)

In general

Any alien who is physically present in the United
States or who arrives in the United States (whether
or not at a designated port of arrival and including an

63a
alien who is brought to the United States after having
been interdicted in international or United States waters), irrespective of such alien's status, may apply for
asylum in accordance with this section or, where applicable, section 1225(b) of this title.
(2)

Exceptions

(A)

Safe third country

Paragraph (1) shall not apply to an alien if the
Attorney General determines that the alien may be
removed, pursuant to a bilateral or multilateral
agreement, to a country (other than the country of
the alien’s nationality or, in the case of an alien having no nationality, the country of the alien’s last habitual residence) in which the alien’s life or freedom
would not be threatened on account of race, religion, nationality, membership in a particular social
group, or political opinion, and where the alien
would have access to a full and fair procedure for
determining a claim to asylum or equivalent temporary protection, unless the Attorney General
finds that it is in the public interest for the alien to
receive asylum in the United States.
(B)

Time limit

Subject to subparagraph (D), paragraph (1) shall
not apply to an alien unless the alien demonstrates
by clear and convincing evidence that the application has been filed within 1 year after the date of
the alien’s arrival in the United States.

64a
(C)

Previous asylum applications

Subject to subparagraph (D), paragraph (1) shall
not apply to an alien if the alien has previously applied for asylum and had such application denied.
(D)

Changed circumstances

An application for asylum of an alien may be considered, notwithstanding subparagraphs (B) and
(C), if the alien demonstrates to the satisfaction of
the Attorney General either the existence of changed
circumstances which materially affect the applicant’s
eligibility for asylum or extraordinary circumstances relating to the delay in filing an application
within the period specified in subparagraph (B).
(E)

Applicability

Subparagraphs (A) and (B) shall not apply to an
unaccompanied alien child (as defined in section
279(g) of title 6).
(3)

Limitation on judicial review

No court shall have jurisdiction to review any determination of the Attorney General under paragraph (2).
(b)

Conditions for granting asylum

(1)

In general

(A)

Eligibility

The Secretary of Homeland Security or the Attorney General may grant asylum to an alien who
has applied for asylum in accordance with the requirements and procedures established by the Secretary of Homeland Security or the Attorney Gen-

65a
eral under this section if the Secretary of Homeland Security or the Attorney General determines
that such alien is a refugee within the meaning of
section 1101(a)(42)(A) of this title.
(B)

Burden of proof
(i)

In general

The burden of proof is on the applicant to establish that the applicant is a refugee, within
the meaning of section 1101(a)(42)(A) of this title. To establish that the applicant is a refugee
within the meaning of such section, the applicant must establish that race, religion, nationality, membership in a particular social group, or
political opinion was or will be at least one central reason for persecuting the applicant.
(ii) Sustaining burden

The testimony of the applicant may be sufficient to sustain the applicant’s burden without
corroboration, but only if the applicant satisfies
the trier of fact that the applicant's testimony is
credible, is persuasive, and refers to specific
facts sufficient to demonstrate that the applicant is a refugee. In determining whether the
applicant has met the applicant’s burden, the
trier of fact may weigh the credible testimony
along with other evidence of record. Where
the trier of fact determines that the applicant
should provide evidence that corroborates otherwise credible testimony, such evidence must
be provided unless the applicant does not have
the evidence and cannot reasonably obtain the
evidence.

66a
(iii) Credibility determination

Considering the totality of the circumstances,
and all relevant factors, a trier of fact may base
a credibility determination on the demeanor,
candor, or responsiveness of the applicant or
witness, the inherent plausibility of the applicant’s or witness’s account, the consistency between the applicant's or witness’s written and
oral statements (whenever made and whether
or not under oath, and considering the circumstances under which the statements were made),
the internal consistency of each such statement,
the consistency of such statements with other
evidence of record (including the reports of the
Department of State on country conditions), and
any inaccuracies or falsehoods in such statements, without regard to whether an inconsistency, inaccuracy, or falsehood goes to the
heart of the applicant’s claim, or any other relevant factor. There is no presumption of credibility, however, if no adverse credibility determination is explicitly made, the applicant or witness shall have a rebuttable presumption of
credibility on appeal.
(2)

Exceptions

(A)

In general

Paragraph (1) shall not apply to an alien if the
Attorney General determines that—
(i)
the alien ordered, incited, assisted, or
otherwise participated in the persecution of any
person on account of race, religion, nationality,

67a
membership in a particular social group, or political opinion;
(ii) the alien, having been convicted by a final judgment of a particularly serious crime,
constitutes a danger to the community of the
United States;
(iii) there are serious reasons for believing
that the alien has committed a serious nonpolitical crime outside the United States prior to the
arrival of the alien in the United States;
(iv) there are reasonable grounds for regarding the alien as a danger to the security of
the United States;
(v) the alien is described in subclause (I),
(II), (III), (IV), or (VI) of section 1182(a)(3)(B)(i)
of this title or section 1227(a)(4)(B) of this title
(relating to terrorist activity), unless, in the case
only of an alien described in subclause (IV) of
section 1182(a)(3)(B)(i) of this title, the Attorney
General determines, in the Attorney General’s
discretion, that there are not reasonable
grounds for regarding the alien as a danger to
the security of the United States; or
(vi) the alien was firmly resettled in another
country prior to arriving in the United States.
(B)

Special rules
(i)

Conviction of aggravated felony

For purposes of clause (ii) of subparagraph
(A), an alien who has been convicted of an aggravated felony shall be considered to have
been convicted of a particularly serious crime.

68a
(ii) Offenses

The Attorney General may designate by regulation offenses that will be considered to be a
crime described in clause (ii) or (iii) of subparagraph (A).
(C)

Additional limitations

The Attorney General may by regulation establish additional limitations and conditions, consistent
with this section, under which an alien shall be ineligible for asylum under paragraph (1).
(D)

No judicial review

There shall be no judicial review of a determination of the Attorney General under subparagraph
(A)(v).
(3)

Treatment of spouse and children

(A)

In general

A spouse or child (as defined in section
1101(b)(1)(A), (B), (C), (D), or (E) of this title) of an
alien who is granted asylum under this subsection
may, if not otherwise eligible for asylum under this
section, be granted the same status as the alien if
accompanying, or following to join, such alien.
(B)

Continued classification of certain aliens as
children

An unmarried alien who seeks to accompany, or
follow to join, a parent granted asylum under this
subsection, and who was under 21 years of age on
the date on which such parent applied for asylum
under this section, shall continue to be classified as
a child for purposes of this paragraph and section

69a
1159(b)(3) of this title, if the alien attained 21 years
of age after such application was filed but while it
was pending.
(C)

Initial jurisdiction

An asylum officer (as defined in section
1225(b)(1)(E) of this title) shall have initial jurisdiction over any asylum application filed by an unaccompanied alien child (as defined in section 279(g)
of title 6), regardless of whether filed in accordance
with this section or section 1225(b) of this title.
(c)

Asylum status

(1)

In general

In the case of an alien granted asylum under subsection (b) of this section, the Attorney General—
(A) shall not remove or return the alien to the
alien’s country of nationality or, in the case of a person having no nationality, the country of the alien’s
last habitual residence;
(B) shall authorize the alien to engage in employment in the United States and provide the alien
with appropriate endorsement of that authorization; and
(C) may allow the alien to travel abroad with
the prior consent of the Attorney General.
(2)

Termination of asylum

Asylum granted under subsection (b) of this section
does not convey a right to remain permanently in the
United States, and may be terminated if the Attorney
General determines that—

70a
(A) the alien no longer meets the conditions described in subsection (b)(1) of this section owing to
a fundamental change in circumstances;
(B) the alien meets a condition described in
subsection (b)(2) of this section;
(C) the alien may be removed, pursuant to a
bilateral or multilateral agreement, to a country
(other than the country of the alien’s nationality or,
in the case of an alien having no nationality, the
country of the alien’s last habitual residence) in
which the alien’s life or freedom would not be
threatened on account of race, religion, nationality,
membership in a particular social group, or political opinion, and where the alien is eligible to receive asylum or equivalent temporary protection;
(D) the alien has voluntarily availed himself or
herself of the protection of the alien’s country of
nationality or, in the case of an alien having no nationality, the alien’s country of last habitual residence, by returning to such country with permanent resident status or the reasonable possibility of
obtaining such status with the same rights and obligations pertaining to other permanent residents
of that country; or
(E) the alien has acquired a new nationality
and enjoys the protection of the country of his or
her new nationality.

71a
(3)

Removal when asylum is terminated

An alien described in paragraph (2) is subject to
any applicable grounds of inadmissibility or deportability under section1 1182(a) and 1227(a) of this title,
and the alien’s removal or return shall be directed by
the Attorney General in accordance with sections
1229a and 1231 of this title.
(d)

Asylum procedure

(1)

Applications

The Attorney General shall establish a procedure
for the consideration of asylum applications filed under subsection (a) of this section. The Attorney General may require applicants to submit fingerprints
and a photograph at such time and in such manner to
be determined by regulation by the Attorney General.
(2)

Employment

An applicant for asylum is not entitled to employment authorization, but such authorization may be
provided under regulation by the Attorney General.
An applicant who is not otherwise eligible for employment authorization shall not be granted such authorization prior to 180 days after the date of filing of the
application for asylum.
(3)

Fees

The Attorney General may impose fees for the consideration of an application for asylum, for employment authorization under this section, and for adjustment of status under section 1159(b) of this title.
Such fees shall not exceed the Attorney General’s
1

So in original.

Probably should be “sections”.

72a
costs in adjudicating the applications. The Attorney
General may provide for the assessment and payment
of such fees over a period of time or by installments.
Nothing in this paragraph shall be construed to require the Attorney General to charge fees for adjudication services provided to asylum applicants, or to
limit the authority of the Attorney General to set adjudication and naturalization fees in accordance with
section 1356(m) of this title.
(4)

Notice of privilege of counsel and consequences of
frivolous application

At the time of filing an application for asylum, the
Attorney General shall—
(A) advise the alien of the privilege of being
represented by counsel and of the consequences,
under paragraph (6), of knowingly filing a frivolous
application for asylum; and
(B) provide the alien a list of persons (updated
not less often than quarterly) who have indicated
their availability to represent aliens in asylum proceedings on a pro bono basis.
(5)

Consideration of asylum applications

(A)

Procedures

The procedure established under paragraph (1)
shall provide that—
(i)
asylum cannot be granted until the identity of the applicant has been checked against all
appropriate records or databases maintained by
the Attorney General and by the Secretary of
State, including the Automated Visa Lookout
System, to determine any grounds on which the

73a
alien may be inadmissible to or deportable from
the United States, or ineligible to apply for or be
granted asylum;
(ii) in the absence of exceptional circumstances, the initial interview or hearing on the
asylum application shall commence not later
than 45 days after the date an application is filed;
(iii) in the absence of exceptional circumstances, final administrative adjudication of the
asylum application, not including administrative
appeal, shall be completed within 180 days after
the date an application is filed;
(iv) any administrative appeal shall be filed
within 30 days of a decision granting or denying
asylum, or within 30 days of the completion of
removal proceedings before an immigration judge
under section 1229a of this title, whichever is
later; and
(v) in the case of an applicant for asylum
who fails without prior authorization or in the
absence of exceptional circumstances to appear
for an interview or hearing, including a hearing
under section 1229a of this title, the application
may be dismissed or the applicant may be otherwise sanctioned for such failure.
(B)

Additional regulatory conditions

The Attorney General may provide by regulation for any other conditions or limitations on the
consideration of an application for asylum not inconsistent with this chapter.

74a
(6)

Frivolous applications

If the Attorney General determines that an alien
has knowingly made a frivolous application for asylum and the alien has received the notice under paragraph (4)(A), the alien shall be permanently ineligible
for any benefits under this chapter, effective as of the
date of a final determination on such application.
(7)

No private right of action

Nothing in this subsection shall be construed to
create any substantive or procedural right or benefit
that is legally enforceable by any party against the
United States or its agencies or officers or any other
person.
(e)

Commonwealth of the Northern Mariana Islands

The provisions of this section and section 1159(b) of
this title shall apply to persons physically present in the
Commonwealth of the Northern Mariana Islands or arriving in the Commonwealth (whether or not at a designated port of arrival and including persons who are
brought to the Commonwealth after having been interdicted in international or United States waters) only on
or after January 1, 2014.

75a
4.

8 U.S.C. 1225 provides:

Inspection by immigration officers; expedited removal of
inadmissible arriving aliens; referral for hearing
(a)

Inspection

(1)

Aliens treated as applicants for admission

An alien present in the United States who has not
been admitted or who arrives in the United States
(whether or not at a designated port of arrival and including an alien who is brought to the United States
after having been interdicted in international or
United States waters) shall be deemed for purposes
of this chapter an applicant for admission.
(2)

Stowaways

An arriving alien who is a stowaway is not eligible
to apply for admission or to be admitted and shall be
ordered removed upon inspection by an immigration
officer. Upon such inspection if the alien indicates an
intention to apply for asylum under section 1158 of
this title or a fear of persecution, the officer shall refer
the alien for an interview under subsection (b)(1)(B)
of this section. A stowaway may apply for asylum
only if the stowaway is found to have a credible fear
of persecution under subsection (b)(1)(B) of this section. In no case may a stowaway be considered an
applicant for admission or eligible for a hearing under
section 1229a of this title.
(3)

Inspection

All aliens (including alien crewmen) who are applicants for admission or otherwise seeking admission or
readmission to or transit through the United States
shall be inspected by immigration officers.

76a
(4)

Withdrawal of application for admission

An alien applying for admission may, in the discretion of the Attorney General and at any time, be permitted to withdraw the application for admission and
depart immediately from the United States.
(5)

Statements

An applicant for admission may be required to
state under oath any information sought by an immigration officer regarding the purposes and intentions
of the applicant in seeking admission to the United
States, including the applicant’s intended length of
stay and whether the applicant intends to remain permanently or become a United States citizen, and
whether the applicant is inadmissible.
(b)

Inspection of applicants for admission

(1)

Inspection of aliens arriving in the United States
and certain other aliens who have not been admitted
or paroled

(A)

Screening
(i)

In general

If an immigration officer determines that an
alien (other than an alien described in subparagraph (F)) who is arriving in the United States
or is described in clause (iii) is inadmissible under section 1182(a)(6)(C) or 1182(a)(7) of this title, the officer shall order the alien removed
from the United States without further hearing
or review unless the alien indicates either an intention to apply for asylum under section 1158
of this title or a fear of persecution.

77a
(ii) Claims for asylum

If an immigration officer determines that an
alien (other than an alien described in subparagraph (F)) who is arriving in the United States
or is described in clause (iii) is inadmissible under section 1182(a)(6)(C) or 1182(a)(7) of this title and the alien indicates either an intention to
apply for asylum under section 1158 of this title
or a fear of persecution, the officer shall refer
the alien for an interview by an asylum officer
under subparagraph (B).
(iii) Application to certain other aliens
(I)

In general

The Attorney General may apply clauses
(i) and (ii) of this subparagraph to any or all
aliens described in subclause (II) as designated by the Attorney General. Such designation shall be in the sole and unreviewable
discretion of the Attorney General and may
be modified at any time.
(II) Aliens described

An alien described in this clause is an alien
who is not described in subparagraph (F),
who has not been admitted or paroled into
the United States, and who has not affirmatively shown, to the satisfaction of an immigration officer, that the alien has been physically present in the United States continuously for the 2-year period immediately prior
to the date of the determination of inadmissibility under this subparagraph.

78a
(B)

Asylum interviews
(i)

Conduct by asylum officers

An asylum officer shall conduct interviews of
aliens referred under subparagraph (A)(ii), either at a port of entry or at such other place
designated by the Attorney General.
(ii) Referral of certain aliens

If the officer determines at the time of the interview that an alien has a credible fear of persecution (within the meaning of clause (v)), the
alien shall be detained for further consideration
of the application for asylum.
(iii) Removal without further review if no credible
fear of persecution
(I)

In general

Subject to subclause (III), if the officer determines that an alien does not have a credible fear of persecution, the officer shall order
the alien removed from the United States
without further hearing or review.
(II) Record of determination

The officer shall prepare a written record
of a determination under subclause (I). Such
record shall include a summary of the material facts as stated by the applicant, such additional facts (if any) relied upon by the officer, and the officer’s analysis of why, in the
light of such facts, the alien has not established a credible fear of persecution. A copy

79a
of the officer’s interview notes shall be attached to the written summary.
(III) Review of determination

The Attorney General shall provide by
regulation and upon the alien’s request for
prompt review by an immigration judge of a
determination under subclause (I) that the
alien does not have a credible fear of persecution. Such review shall include an opportunity for the alien to be heard and questioned by the immigration judge, either in
person or by telephonic or video connection.
Review shall be concluded as expeditiously as
possible, to the maximum extent practicable
within 24 hours, but in no case later than
7 days after the date of the determination under subclause (I).
(IV) Mandatory detention

Any alien subject to the procedures under
this clause shall be detained pending a final
determination of credible fear of persecution
and, if found not to have such a fear, until removed.
(iv) Information about interviews

The Attorney General shall provide information concerning the asylum interview described in this subparagraph to aliens who may
be eligible. An alien who is eligible for such interview may consult with a person or persons of
the alien’s choosing prior to the interview or any
review thereof, according to regulations pre-

80a
scribed by the Attorney General. Such consultation shall be at no expense to the Government
and shall not unreasonably delay the process.
(v)

“Credible fear of persecution” defined

For purposes of this subparagraph, the term
“credible fear of persecution” means that there
is a significant possibility, taking into account
the credibility of the statements made by the alien in support of the alien’s claim and such other
facts as are known to the officer, that the alien
could establish eligibility for asylum under section 1158 of this title.
(C)

Limitation on administrative review

Except as provided in subparagraph (B)(iii)(III),
a removal order entered in accordance with subparagraph (A)(i) or (B)(iii)(I) is not subject to administrative appeal, except that the Attorney General shall provide by regulation for prompt review
of such an order under subparagraph (A)(i) against
an alien who claims under oath, or as permitted under penalty of perjury under section 1746 of title
28, after having been warned of the penalties for
falsely making such claim under such conditions, to
have been lawfully admitted for permanent residence, to have been admitted as a refugee under
section 1157 of this title, or to have been granted
asylum under section 1158 of this title.
(D)

Limit on collateral attacks

In any action brought against an alien under section 1325(a) of this title or section 1326 of this title,
the court shall not have jurisdiction to hear any

81a
claim attacking the validity of an order of removal
entered under subparagraph (A)(i) or (B)(iii).
(E)

“Asylum officer” defined

As used in this paragraph, the term “asylum officer” means an immigration officer who—
(i)
has had professional training in country
conditions, asylum law, and interview techniques
comparable to that provided to full-time adjudicators of applications under section 1158 of this
title, and
(ii) is supervised by an officer who meets
the condition described in clause (i) and has had
substantial experience adjudicating asylum applications.
(F)

Exception

Subparagraph (A) shall not apply to an alien who
is a native or citizen of a country in the Western
Hemisphere with whose government the United
States does not have full diplomatic relations and
who arrives by aircraft at a port of entry.
(G)

Commonwealth of the Northern Mariana
Islands

Nothing in this subsection shall be construed to
authorize or require any person described in section 1158(e) of this title to be permitted to apply for
asylum under section 1158 of this title at any time
before January 1, 2014.

82a
(2)

Inspection of other aliens

(A)

In general

Subject to subparagraphs (B) and (C), in the
case of an alien who is an applicant for admission,
if the examining immigration officer determines
that an alien seeking admission is not clearly and
beyond a doubt entitled to be admitted, the alien
shall be detained for a proceeding under section
1229a of this title.
(B)

Exception

Subparagraph (A) shall not apply to an alien—

(C)

(i)

who is a crewman,

(ii)

to whom paragraph (1) applies, or

(iii)

who is a stowaway.

Treatment of aliens arriving from contiguous
territory

In the case of an alien described in subparagraph
(A) who is arriving on land (whether or not at a designated port of arrival) from a foreign territory
contiguous to the United States, the Attorney General may return the alien to that territory pending
a proceeding under section 1229a of this title.
(3)

Challenge of decision

The decision of the examining immigration officer,
if favorable to the admission of any alien, shall be subject to challenge by any other immigration officer and
such challenge shall operate to take the alien whose
privilege to be admitted is so challenged, before an

83a
immigration judge for a proceeding under section
1229a of this title.
(c)

Removal of aliens inadmissible on security and related
grounds

(1)

Removal without further hearing

If an immigration officer or an immigration judge
suspects that an arriving alien may be inadmissible
under subparagraph (A) (other than clause (ii)), (B),
or (C) of section 1182(a)(3) of this title, the officer or
judge shall—
(A) order the alien removed, subject to review
under paragraph (2);
(B) report the order of removal to the Attorney General; and
(C) not conduct any further inquiry or hearing
until ordered by the Attorney General.
(2)

Review of order

(A) The Attorney General shall review orders issued under paragraph (1).
(B)

If the Attorney General—

(i)
is satisfied on the basis of confidential information that the alien is inadmissible under subparagraph (A) (other than clause (ii)), (B), or (C) of
section 1182(a)(3) of this title, and
(ii) after consulting with appropriate security
agencies of the United States Government, concludes that disclosure of the information would be
prejudicial to the public interest, safety, or security,

84a
the Attorney General may order the alien removed
without further inquiry or hearing by an immigration
judge.
(C) If the Attorney General does not order the
removal of the alien under subparagraph (B), the Attorney General shall specify the further inquiry or
hearing that shall be conducted in the case.
(3)

Submission of statement and information

The alien or the alien's representative may submit
a written statement and additional information for
consideration by the Attorney General.
(d)

Authority relating to inspections

(1)

Authority to search conveyances

Immigration officers are authorized to board and
search any vessel, aircraft, railway car, or other conveyance or vehicle in which they believe aliens are being brought into the United States.
(2)

Authority to order detention and delivery of
arriving aliens

Immigration officers are authorized to order an
owner, agent, master, commanding officer, person in
charge, purser, or consignee of a vessel or aircraft
bringing an alien (except an alien crewmember) to the
United States—
(A) to detain the alien on the vessel or at the
airport of arrival, and
(B) to deliver the alien to an immigration officer for inspection or to a medical officer for examination.

85a
(3)

Administration of oath and consideration of
evidence

The Attorney General and any immigration officer
shall have power to administer oaths and to take and
consider evidence of or from any person touching the
privilege of any alien or person he believes or suspects to be an alien to enter, reenter, transit through,
or reside in the United States or concerning any matter which is material and relevant to the enforcement
of this chapter and the administration of the Service.
(4)

Subpoena authority

(A) The Attorney General and any immigration
officer shall have power to require by subpoena the
attendance and testimony of witnesses before immigration officers and the production of books, papers,
and documents relating to the privilege of any person
to enter, reenter, reside in, or pass through the
United States or concerning any matter which is material and relevant to the enforcement of this chapter
and the administration of the Service, and to that end
may invoke the aid of any court of the United States.
(B) Any United States district court within the
jurisdiction of which investigations or inquiries are
being conducted by an immigration officer may, in the
event of neglect or refusal to respond to a subpoena
issued under this paragraph or refusal to testify before an immigration officer, issue an order requiring
such persons to appear before an immigration officer,
produce books, papers, and documents if demanded,
and testify, and any failure to obey such order of the
court may be punished by the court as a contempt
thereof.

86a
5.

8 U.S.C. 1252 provides:

Judicial review of orders of removal
(a)

Applicable provisions

(1)

General orders of removal

Judicial review of a final order of removal (other
than an order of removal without a hearing pursuant
to section 1225(b)(1) of this title) is governed only by
chapter 158 of title 28, except as provided in subsection (b) of this section and except that the court may
not order the taking of additional evidence under section 2347(c) of such title.
(2)

Matters not subject to judicial review

(A)

Review relating to section 1225(b)(1)

Notwithstanding any other provision of law (statutory or nonstatutory), including section 2241 of title 28, or any other habeas corpus provision, and
sections 1361 and 1651 of such title, no court shall
have jurisdiction to review—
(i)
except as provided in subsection (e) of
this section, any individual determination or to
entertain any other cause or claim arising from
or relating to the implementation or operation of
an order of removal pursuant to section 1225(b)(1)
of this title,
(ii) except as provided in subsection (e) of
this section, a decision by the Attorney General
to invoke the provisions of such section,
(iii) the application of such section to individual aliens, including the determination made
under section 1225(b)(1)(B) of this title, or

87a
(iv) except as provided in subsection (e) of
this section, procedures and policies adopted by
the Attorney General to implement the provisions of section 1225(b)(1) of this title.
(B)

Denials of discretionary relief

Notwithstanding any other provision of law (statutory or nonstatutory), including section 2241 of title 28, or any other habeas corpus provision, and
sections 1361 and 1651 of such title, and except as
provided in subparagraph (D), and regardless of
whether the judgment, decision, or action is made
in removal proceedings, no court shall have jurisdiction to review—
(i)
any judgment regarding the granting of
relief under section 1182(h), 1182(i), 1229b, 1229c,
or 1255 of this title, or
(ii) any other decision or action of the Attorney General or the Secretary of Homeland
Security the authority for which is specified under this subchapter to be in the discretion of the
Attorney General or the Secretary of Homeland
Security, other than the granting of relief under
section 1158(a) of this title.
(C)

Orders against criminal aliens

Notwithstanding any other provision of law (statutory or nonstatutory), including section 2241 of
title 28, or any other habeas corpus provision, and
sections 1361 and 1651 of such title, and except
as provided in subparagraph (D), no court shall
have jurisdiction to review any final order of removal against an alien who is removable by reason
of having committed a criminal offense covered

88a
in section 1182(a)(2) or 1227(a)(2)(A)(iii), (B), (C),
or (D) of this title, or any offense covered by section 1227(a)(2)(A)(ii) of this title for which both
predicate offenses are, without regard to their
date of commission, otherwise covered by section
1227(a)(2)(A)(i) of this title.
(D)

Judicial review of certain legal claims

Nothing in subparagraph (B) or (C), or in any
other provision of this chapter (other than this section) which limits or eliminates judicial review,
shall be construed as precluding review of constitutional claims or questions of law raised upon a petition for review filed with an appropriate court of
appeals in accordance with this section.
(3)

Treatment of certain decisions

No alien shall have a right to appeal from a decision
of an immigration judge which is based solely on a
certification described in section 1229a(c)(1)(B) of
this title.
(4)

Claims under the United Nations Convention

Notwithstanding any other provision of law (statutory or nonstatutory), including section 2241 of title
28, or any other habeas corpus provision, and sections
1361 and 1651 of such title, a petition for review filed
with an appropriate court of appeals in accordance
with this section shall be the sole and exclusive means
for judicial review of any cause or claim under the
United Nations Convention Against Torture and
Other Forms of Cruel, Inhuman, or Degrading Treatment or Punishment, except as provided in subsection
(e) of this section.

89a
(5)

Exclusive means of review

Notwithstanding any other provision of law (statutory or nonstatutory), including section 2241 of title
28, or any other habeas corpus provision, and sections
1361 and 1651 of such title, a petition for review filed
with an appropriate court of appeals in accordance
with this section shall be the sole and exclusive means
for judicial review of an order of removal entered or
issued under any provision of this chapter, except as
provided in subsection (e) of this section. For purposes of this chapter, in every provision that limits or
eliminates judicial review or jurisdiction to review,
the terms “judicial review” and “jurisdiction to review” include habeas corpus review pursuant to section 2241 of title 28, or any other habeas corpus provision, sections 1361 and 1651 of such title, and review
pursuant to any other provision of law (statutory or
nonstatutory).
(b)

Requirements for review of orders of removal

With respect to review of an order of removal under
subsection (a)(1) of this section, the following requirements apply:
(1)

Deadline

The petition for review must be filed not later than
30 days after the date of the final order of removal.
(2)

Venue and forms

The petition for review shall be filed with the court
of appeals for the judicial circuit in which the immigration judge completed the proceedings. The record and briefs do not have to be printed. The court

90a
of appeals shall review the proceeding on a typewritten record and on typewritten briefs.
(3)
(A)

Service
In general

The respondent is the Attorney General. The
petition shall be served on the Attorney General
and on the officer or employee of the Service in
charge of the Service district in which the final order of removal under section 1229a of this title was
entered.
(B)

Stay of order

Service of the petition on the officer or employee
does not stay the removal of an alien pending the
court’s decision on the petition, unless the court orders otherwise.
(C)

Alien’s brief

The alien shall serve and file a brief in connection with a petition for judicial review not later than
40 days after the date on which the administrative
record is available, and may serve and file a reply
brief not later than 14 days after service of the brief
of the Attorney General, and the court may not extend these deadlines except upon motion for good
cause shown. If an alien fails to file a brief within
the time provided in this paragraph, the court shall
dismiss the appeal unless a manifest injustice would
result.

91a
(4)

Scope and standard for review

Except as provided in paragraph (5)(B)—
(A) the court of appeals shall decide the petition only on the administrative record on which the
order of removal is based,
(B) the administrative findings of fact are conclusive unless any reasonable adjudicator would be
compelled to conclude to the contrary,
(C) a decision that an alien is not eligible for
admission to the United States is conclusive unless
manifestly contrary to law, and
(D) the Attorney General’s discretionary judgment whether to grant relief under section 1158(a)
of this title shall be conclusive unless manifestly
contrary to the law and an abuse of discretion.
No court shall reverse a determination made by a
trier of fact with respect to the availability of corroborating evidence, as described in section 1158(b)(1)(B),
1229a(c)(4)(B), or 1231(b)(3)(C) of this title, unless the
court finds, pursuant to subsection (b)(4)(B) of this
section, that a reasonable trier of fact is compelled to
conclude that such corroborating evidence is unavailable.
(5)
(A)

Treatment of nationality claims
Court determination if no issue of fact

If the petitioner claims to be a national of the
United States and the court of appeals finds from
the pleadings and affidavits that no genuine issue
of material fact about the petitioner’s nationality is

92a
presented, the court shall decide the nationality
claim.
(B)

Transfer if issue of fact

If the petitioner claims to be a national of the
United States and the court of appeals finds that a
genuine issue of material fact about the petitioner’s
nationality is presented, the court shall transfer
the proceeding to the district court of the United
States for the judicial district in which the petitioner resides for a new hearing on the nationality
claim and a decision on that claim as if an action
had been brought in the district court under section
2201 of title 28.
(C)

Limitation on determination

The petitioner may have such nationality claim
decided only as provided in this paragraph.
(6)

Consolidation with review of motions to reopen
or reconsider

When a petitioner seeks review of an order under
this section, any review sought of a motion to reopen
or reconsider the order shall be consolidated with the
review of the order.
(7)
(A)

Challenge to validity of orders in certain criminal
proceedings
In general

If the validity of an order of removal has not
been judicially decided, a defendant in a criminal
proceeding charged with violating section 1253(a)
of this title may challenge the validity of the order
in the criminal proceeding only by filing a separate

93a
motion before trial. The district court, without a
jury, shall decide the motion before trial.
(B)

Claims of United States nationality

If the defendant claims in the motion to be a national of the United States and the district court
finds that—
(i)
no genuine issue of material fact about
the defendant’s nationality is presented, the court
shall decide the motion only on the administrative record on which the removal order is based
and the administrative findings of fact are conclusive if supported by reasonable, substantial,
and probative evidence on the record considered
as a whole; or
(ii) a genuine issue of material fact about the
defendant’s nationality is presented, the court
shall hold a new hearing on the nationality claim
and decide that claim as if an action had been
brought under section 2201 of title 28.
The defendant may have such nationality claim decided only as provided in this subparagraph.
(C)

Consequence of invalidation

If the district court rules that the removal order
is invalid, the court shall dismiss the indictment for
violation of section 1253(a) of this title. The United
States Government may appeal the dismissal to the
court of appeals for the appropriate circuit within
30 days after the date of the dismissal.

94a
(D)

Limitation on filing petitions for review

The defendant in a criminal proceeding under
section 1253(a) of this title may not file a petition
for review under subsection (a) of this section during the criminal proceeding.
(8)

Construction

This subsection—
(A) does not prevent the Attorney General, after a final order of removal has been issued, from
detaining the alien under section 1231(a) of this title;
(B) does not relieve the alien from complying
with section 1231(a)(4) of this title and section
1253(g)1 of this title; and
(C) does not require the Attorney General to
defer removal of the alien.
(9)

Consolidation of questions for judicial review

Judicial review of all questions of law and fact, including interpretation and application of constitutional and statutory provisions, arising from any action taken or proceeding brought to remove an alien
from the United States under this subchapter shall be
available only in judicial review of a final order under
this section. Except as otherwise provided in this
section, no court shall have jurisdiction, by habeas
corpus under section 2241 of title 28 or any other habeas corpus provision, by section 1361 or 1651 of such
title, or by any other provision of law (statutory or

1

See References in Text note below.

95a
nonstatutory), to review such an order or such questions of law or fact.
(c)

Requirements for petition

A petition for review or for habeas corpus of an order
of removal—
(1)

shall attach a copy of such order, and

(2) shall state whether a court has upheld the validity of the order, and, if so, shall state the name of
the court, the date of the court’s ruling, and the kind
of proceeding.
(d)

Review of final orders

A court may review a final order of removal only if—
(1) the alien has exhausted all administrative
remedies available to the alien as of right, and
(2) another court has not decided the validity of
the order, unless the reviewing court finds that the
petition presents grounds that could not have been
presented in the prior judicial proceeding or that the
remedy provided by the prior proceeding was inadequate or ineffective to test the validity of the order.
(e)

Judicial review of orders under section 1225(b)(1)

(1)

Limitations on relief

Without regard to the nature of the action or claim
and without regard to the identity of the party or parties bringing the action, no court may—
(A) enter declaratory, injunctive, or other equitable relief in any action pertaining to an order
to exclude an alien in accordance with section

96a
1225(b)(1) of this title except as specifically authorized in a subsequent paragraph of this subsection,
or
(B) certify a class under Rule 23 of the Federal
Rules of Civil Procedure in any action for which judicial review is authorized under a subsequent paragraph of this subsection.
(2)

Habeas corpus proceedings

Judicial review of any determination made under
section 1225(b)(1) of this title is available in habeas
corpus proceedings, but shall be limited to determinations of—
(A)

whether the petitioner is an alien,

(B) whether the petitioner was ordered removed under such section, and
(C) whether the petitioner can prove by a preponderance of the evidence that the petitioner is an
alien lawfully admitted for permanent residence,
has been admitted as a refugee under section 1157
of this title, or has been granted asylum under section 1158 of this title, such status not having been
terminated, and is entitled to such further inquiry
as prescribed by the Attorney General pursuant to
section 1225(b)(1)(C) of this title.
(3)
(A)

Challenges on validity of the system
In general

Judicial review of determinations under section
1225(b) of this title and its implementation is available in an action instituted in the United States

97a
District Court for the District of Columbia, but
shall be limited to determinations of—
(i)
whether such section, or any regulation
issued to implement such section, is constitutional; or
(ii) whether such a regulation, or a written
policy directive, written policy guideline, or written procedure issued by or under the authority
of the Attorney General to implement such section, is not consistent with applicable provisions
of this subchapter or is otherwise in violation of
law.
(B)

Deadlines for bringing actions

Any action instituted under this paragraph must
be filed no later than 60 days after the date the
challenged section, regulation, directive, guideline,
or procedure described in clause (i) or (ii) of subparagraph (A) is first implemented.
(C)

Notice of appeal

A notice of appeal of an order issued by the District Court under this paragraph may be filed not
later than 30 days after the date of issuance of such
order.
(D)

Expeditious consideration of cases

It shall be the duty of the District Court, the
Court of Appeals, and the Supreme Court of the
United States to advance on the docket and to expedite to the greatest possible extent the disposition of any case considered under this paragraph.

98a
(4)

Decision

In any case where the court determines that the
petitioner—
(A) is an alien who was not ordered removed
under section 1225(b)(1) of this title, or
(B) has demonstrated by a preponderance of
the evidence that the alien is an alien lawfully admitted for permanent residence, has been admitted
as a refugee under section 1157 of this title, or has
been granted asylum under section 1158 of this title, the court may order no remedy or relief other
than to require that the petitioner be provided a
hearing in accordance with section 1229a of this title. Any alien who is provided a hearing under
section 1229a of this title pursuant to this paragraph may thereafter obtain judicial review of any
resulting final order of removal pursuant to subsection (a)(1) of this section.
(5)

Scope of inquiry

In determining whether an alien has been ordered
removed under section 1225(b)(1) of this title, the
court’s inquiry shall be limited to whether such an order in fact was issued and whether it relates to the
petitioner. There shall be no review of whether the
alien is actually inadmissible or entitled to any relief
from removal.
(f )

Limit on injunctive relief

(1)

In general

Regardless of the nature of the action or claim or
of the identity of the party or parties bringing the action, no court (other than the Supreme Court) shall

99a
have jurisdiction or authority to enjoin or restrain the
operation of the provisions of part IV of this subchapter, as amended by the Illegal Immigration Reform
and Immigrant Responsibility Act of 1996, other than
with respect to the application of such provisions to
an individual alien against whom proceedings under
such part have been initiated.
(2)

Particular cases

Notwithstanding any other provision of law, no
court shall enjoin the removal of any alien pursuant
to a final order under this section unless the alien
shows by clear and convincing evidence that the entry
or execution of such order is prohibited as a matter of
law.
(g)

Exclusive jurisdiction

Except as provided in this section and notwithstanding any other provision of law (statutory or nonstatutory), including section 2241 of title 28, or any other habeas corpus provision, and sections 1361 and 1651 of
such title, no court shall have jurisdiction to hear any
cause or claim by or on behalf of any alien arising from
the decision or action by the Attorney General to commence proceedings, adjudicate cases, or execute removal orders against any alien under this chapter.

